1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_____________
Argued April 16, 2019

Decided August 20, 2019

No. 18-5154
AMERICAN BANKERS ASSOCIATION,
APPELLEE
v.
NATIONAL CREDIT UNION ADMINISTRATION,
APPELLANT
_____________
Consolidated with 18-5181
_____________
Appeals from the United States District Court
for the District of Columbia
(No. 1:16-cv-02394)
_____________
Before: HENDERSON, PILLARD, and WILKINS,
Circuit Judges.
Opinion for the Court filed by Circuit Judge WILKINS.
WILKINS, Circuit Judge: Longstanding principles of administrative law teach us to give federal
agencies breathing room when they make policy and

2a
“resolv[e] the struggle between competing views of the
public interest.” Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 866 (1984). And because
many policy decisions merge with legal ones, Chevron
requires us frequently to sustain agency interpretations of certain federal statutes. Congress often
expects agencies, with their political accountability,
“bod[ies] of experience[,] and informed judgment,” to
make sound interpretive choices “with the force of
law.” United States v. Mead Corp., 533 U.S. 218, 227,
229 (2001) (citation omitted).
Congress expressly tasked the National Credit
Union Administration (NCUA) with making such
choices in defining the reach of federal credit unions.
Since the Great Depression, Congress has maintained
a “system of federal credit unions that . . . provide
credit at reasonable rates” and banking services to
“people of ‘small means.’” First Nat’l Bank & Tr. Co.
v. NCUA (First Nat’l Bank I), 988 F.2d 1272, 1274
(D.C. Cir. 1993) (citation omitted), aff’d, 522 U.S. 479
(1998). Although a private bank may solicit and welcome customers from anywhere, Congress has limited
whom these federal financial institutions may serve.
For instance, certain institutions called “community
credit unions” may cover individuals and entities only
within a preapproved geographical area. The credit
union will not receive a federal charter (and thus cannot start operations) unless it first proffers a
geographical coverage area and the NCUA accepts the
proposal. Congress explicitly assigns the agency the
task of creating vetting standards.
Exercising its expressly delegated power, the
NCUA has promulgated a final rule that makes it easier for community credit unions to expand their

3a
geographical coverage and thus to reach more potential members. Representing competitors to the credit
unions, the American Bankers Association (Association) has challenged the NCUA’s new rule as neither
“in accordance with law” nor within “statutory jurisdiction.” 5 U.S.C. § 706(2)(A), (C). The District Court
vacated significant portions of the rule, deeming them
to be based on unreasonable agency interpretations of
the Federal Credit Union Act (Act), Pub. L. No. 73467, 48 Stat. 1216 (1934) (codified as amended at
12 U.S.C. §§ 1751 to 1795k). See Am. Bankers Ass’n v.
NCUA, 306 F. Supp. 3d 44, 61, 69-70 (D.D.C. 2018).
We appreciate the District Court’s conclusions,
made after a thoughtful analysis of the Act. But we
ultimately disagree with many of them. In this facial
challenge, we review the rule not as armchair bankers
or geographers, but rather as lay judges cognizant that
Congress expressly delegated certain policy choices to
the NCUA. After considering the Act’s text, purpose,
and legislative history, we hold the agency’s policy
choices “entirely appropriate” for the most part. Chevron, 467 U.S. at 865. We therefore sustain the bulk of
the rule. Still, we do not rubber-stamp this regulation.
We remand, without vacating, one portion for further
consideration of the discriminatory impact it might
have on poor and minority urban residents.
I.
A.
The nation’s credit unions started in the early
twentieth century “as a populist mechanism designed
to empower farmers against bad loans.” Mehrsa Baradaran, How the Poor Got Cut Out of Banking, 62
EMORY L.J. 483, 500 (2013). Walloped by crop failures

4a
and the Great Depression, farmers seeking credit became not only increasingly suspicious of traditional
bankers, who “disregard[ed]” poor individuals and
stayed in the big cities, but also fearful of loan sharks,
“who would extract ‘up to a thousand percent’ in interest rates.” Id. at 500-01 (quoting 80 CONG. REC. 6752
(1936) (statement of Rep. Lundeen)). The farmers
thus began to build their own credit networks.
In a national grassroots campaign, farmers created localized, non-profit “credit groups” collecting
funds from and loaning small sums to one another at
low interest rates. See id. at 501-02. The success of
any such self-help institution “hinge[s] on the interpersonal dynamics of its members: Lenders must be
able to evaluate the ability and willingness of potential borrowers to pay back their loans and borrowers
must feel obligated to pay back those loans.” Wendy
Cassity, Note, The Case for a Credit Union Community
Reinvestment Act, 100 COLUM. L. REV. 331, 337 (2000);
see also First Nat’l Bank & Tr. Co. v. NCUA (First
Nat’l Bank II), 90 F.3d 525, 526 (D.C. Cir. 1996), aff’d,
522 U.S. 479 (1998).
By 1934, individuals had organized about 3,000
local credit unions, with about 750,000 members. See
80 CONG. REC. at 6753. Recognizing the success of
credit unions at the state level, Congress created a
federal system that year by passing the Act. Legislators worried that “usurious money lending . . .
obviously destroy[ed] vast totals of buying power [once
held by] . . . the average worker.” H.R. REP. NO.. 732021, at 1-2 (1934); see also S. REP. NO. 73-555, at 1
(1934). Congress touted the Act’s ability to “make
more available to people of small means credit for

5a
provident purposes.” H.R. REP. NO. 73-2021, at 1; see
also S. REP. NO. 73-555, at 1.
Credit unions multiplied over the ensuing decades. By 1970, Congress created an independent
agency to supervise federal credit unions: the NCUA.
See Pub. L. No. 91-468, 84 Stat. 994 (1970) (codified
as amended in scattered sections of 12 U.S.C.); see also
Swan v. Clinton, 100 F.3d 973, 974 (D.C. Cir. 1996)
(noting that Congress “entrusted” the agency with
“the responsibility of overseeing” federal credit unions). Legislators thought that the agency would be
“more responsive to the needs of credit unions” and
would “provide more flexible and innovative regulation” than prior government agencies, which did not
have federal credit unions as their sole focus. S. REP.
NO. 91-518, at 3 (1969).
The NCUA faced its first major crisis at the end of
the 1970s. After years of economic decline in several
industrial sectors, federal credit unions tied to those
business sectors began to suffer. The resulting liquidation of numerous credit unions “threaten[ed] ‘the
safety and soundness of the federal credit union system.’” Cassity, supra, at 338-39 (footnote omitted).
Reacting to the emergency, the NCUA in 1981 promulgated a groundbreaking rule that loosened a major
size limitation on certain federal credit unions. Almost immediately, those financial institutions grew in
membership.
Meanwhile, credit unions became “caught up in
the broader changes in banking and faced internal as
well as external pressure to compete with [private]
banks and seek higher profits.” Baradaran, supra, at
505. Unlike credit unions, private, for-profit banks

6a
were “owned by equity holders who may not necessarily be customers (depositors or borrowers),” and
they did “not have similar membership and commercial lending restrictions” as credit unions. DARRYL E.
GETTER, CONG. RESEARCH SERV., IF11048, INTRODUCTION TO BANK REGULATION: CREDIT UNIONS AND
COMMUNITY BANKS: A COMPARISON 1 (2018). To remain
viable, credit unions “started to focus on attracting
more customers and expanding the industry.” Baradaran, supra, at 505. As part of that strategy, many
consolidated through mergers. And private banks
soon treated credit unions as serious competitors,
seeking to curb their growth. See NCUA v. First Nat’l
Bank & Tr. Co. (First Nat’l Bank III), 522 U.S. 479,
485 (1998); First Nat’l Bank I, 988 F.2d at 1276.
In 1998, the banking industry successfully challenged as contrary to the Act the 1981 rule that had
eased size limitations for certain federal credit unions.
See First Nat’l Bank III, 522 U.S. at 503. Congress
swiftly responded. In less than six months, legislators
amended the Act, superseding the holding in First National Bank III, loosening size limitations on certain
federal credit unions, and adding other reforms. See
Credit Union Membership Access Act, Pub. L. No. 105219, 112 Stat. 913 (1998) (codified as amended in scattered sections of 12 U.S.C.). Partly because of the 1998
amendments and related NCUA regulations, credit
unions continued to merge and grow in membership.
Now, more than 61 million customers perform their
banking services at about 3,400 federal credit unions.
See 2018 NAT’L CREDIT UNION ADMIN. ANN. REP. 192.

7a
B.
Federal credit unions pool funds from – and give
loans to – their members and other credit-union entities. 12 U.S.C. § 1757(5), (6). A credit union’s
members, whether individual or corporate, must come
from the credit union’s membership “field,” id.
§ 1753(5), which is based on a shared occupation, association, or geographical area. Members receive
regular dividends. Id. § 1763. Congress has shielded
federal credit unions from federal corporate income
taxes and most state and local taxes, but members
must pay taxes on their dividends. See JAMES M. BICKLEY, CONG. RESEARCH SERV., 97-548 E, SHOULD
CREDIT UNIONS BE TAXED? 3-5 (2005).
To create a federal credit union, at least seven individuals must present a proposed charter and pay a
fee to the NCUA. See MICHAEL P. MALLOY, BANKING
LAW & REGULATION § 2.04 (2d ed. 2019). In the application, the organizers must pledge to deposit funds for
shares in the institution and must describe the credit
union’s proposed membership field. 12 U.S.C.
§ 1753(3), (5). The NCUA must approve the charter
before the institution may start. See id. § 1754. The
agency will complete an “appropriate investigation”
and determine the “general character and fitness” of
the organizers, the “economic advisability of establishing” the credit union, and the “conform[ity]” of
proposal details with the Act. Id.
The Act governs two types of federal credit unions:
“common-bond” credit unions and “community” credit
unions. See id. § 1759(b). This case deals with the latter category. The 1934 version of the Act required a
community credit union’s membership field to reflect

8a
a particular geographical area – to wit, “a well-defined
neighborhood, community, or rural district.” § 9, 48
Stat. at 1219. As amended in 1998, the Act provides
that membership for a community credit union “shall
be limited to . . . [p]ersons or organizations within a
well- defined local community, neighborhood, or rural
district.” 12 U.S.C. § 1759(b) (emphasis added). The
1998 version calls on the NCUA to “prescribe, by regulation, a definition for the term ‘well-defined local
community, neighborhood, or rural district.’” Id.
§ 1759(g)(1). Thus, under the new regime, individuals
seeking to organize a new community credit union (or
alter an existing one) must commit to serving members within the NCUA’s contemporaneous definition
of “local community, neighborhood, or rural district.”
See S. REP. NO. 105-193, at 4, 8 (1998); H.R. REP. NO.
105-472, at 21 (1998). As part of their application to
the NCUA, they must provide a proposed description
of the precise geographical area that the credit union
would serve.
Since 1998, there has been “dramatic growth” in
the number of community credit unions. U.S. GOV’T
ACCOUNTABILITY OFF., GAO-07-29, CREDIT UNIONS:
GREATER TRANSPARENCY NEEDED ON WHO CREDIT UNIONS SERVE AND ON SENIOR EXECUTIVE COMPENSATION
ARRANGEMENTS 4 (2006). Despite a 11-percent drop in
the number of federal credit unions from 2000 to 2005,
community credit unions doubled to 1,115. Id. at 4, 12.
Meanwhile, the amount of assets in community credit
unions quadrupled to $104 billion. Id. at 4.
C.
On December 7, 2016, the NCUA amended its
membership-field rules for community credit unions.

9a
See Chartering and Field of Membership Manual,
81 Fed. Reg. 88,412 (Dec. 7, 2016). Several changes
rely on two terms devised by the Office of Management and Budget (OMB) and based on data collected
by the Census Bureau (Census): “Core Based Statistical Areas” and “Combined Statistical Areas.”
The OMB has designated numerous regions
around the country as Core Based Statistical Areas,
which comprise at least one urban cluster, or core, of
10,000 or more people and adjacent counties with substantial commuting ties to that core. See U.S. CENSUS
BUREAU, GEOGRAPHICAL PROGRAM, GLOSSARY,
https://www.census.gov/programs-surveys/geography
/about/glossary.html. In layman’s terms, a Core Based
Statistical Area is a city or town and its suburbs.
Meanwhile, a Combined Statistical Area is a conglomerate of two or more adjoining Core Based
Statistical Areas, each of which has substantial commuting ties with at least one other Core Based
Statistical Area in the group. Id. Essentially, a Combined Statistical Area is a regional hub with urban
centers connected by commuting patterns. Combined
Statistical Areas may “reflect broader social and economic interactions, such as wholesaling, commodity
distribution, and weekend recreation activities.” OFFICE OF MGMT. & BUDGET, EXEC. OFFICE OF THE
PRESIDENT, OMB BULL. NO. 15-01, REVISED DELINEAMETROPOLITAN STATISTICAL AREAS,
TIONS
OF
MICROPOLITAN STATISTICAL AREAS, AND COMBINED
STATISTICAL AREAS, AND GUIDANCE ON USES OF THE
DELINEATIONS OF THESE AREAS app. 2-3 (2015).

10a
Relevant here, the 2016 rule made two changes to
the NCUA’s definition of the term “local community” under § 1759(b)(3) and one to that of “rural
district.” The changes affect what proposed membership areas satisfy the geographical limitation imposed
by the Act.
The first change to the “local community” definition involves Combined Statistical Areas. A proposed
area qualifies as a local community if it encompasses
the whole or a portion of a Combined Statistical Area
and does not exceed a designated population limit. See
81 Fed. Reg. at 88,440. The NCUA has set that cap at
2.5 million people.
The second change involves Core Based Statistical
Areas. The parties agree that all or part of a Core
Based Statistical Area may qualify as a local community so long as it does not exceed the population limit.
But since 2010, the NCUA required such a membership area to include the urban core. The new rule no
longer requires that the core be included in the local
community that a credit union proposes to serve. See
id. at 88,413, 88,440.
As for the “rural district” definition, the new rule
increases the population cap for valid rural districts
from 250,000 people (or 3 percent of the population of
the state where most eligible residents are located) to
1 million people. See id. at 88,416, 88,440. The new
population limit works with two other constraints set
by the rule: (1) an outer geographical limit on how far
a rural district may extend past the borders of the
credit union’s headquarters state; and (2) a requirement either that most eligible residents reside in
Census-designated rural areas, or that the population

11a
density of the proposed district equals 100 or fewer
people per square mile. See id. at 88,440.
D.
On the day the NCUA published the rule, the Association filed this injunctive and declaratory action in
the District Court. The Association claimed that the
three changes described above were not only arbitrary
and capricious under the Administrative Procedure
Act (APA), Pub. L. No. 79-404, 60 Stat. 237 (1946)
(codified as 5 U.S.C. §§ 701-06), but also unreasonable
and entitled to no deference under Chevron. The
agency and Association filed cross-motions for
summary judgment. On March 29, 2018, the District
Court granted both motions in part and denied them
in part.
The court made three relevant holdings. First, it
rejected as unreasonable the qualification of certain
Combined Statistical Areas as local communities. See
Am. Bankers Ass’n, 306 F. Supp. 3d at 61. Second, it
sustained as well-reasoned the elimination of the core
requirement from the Core Based Statistical Area a
credit union proposes to serve as its local community.
Id. at 64-65. Third, it rejected as unreasonable the increased population cap for rural districts. Id. at 69-70.
(It also sustained a separate portion of the rule, which
the Association does not challenge here.)
The NCUA and Association timely appealed. We
have appellate jurisdiction under 28 U.S.C. § 1291.

12a
II.
At the outset, we must assure ourselves of our
subject matter jurisdiction over the appellate proceeding. See, e.g., United States v. Gooch, 842 F.3d 1274,
1277 (D.C. Cir. 2016).
In their original briefing, the parties failed to apprise us of a rule that was promulgated while this
appeal was pending and that changed membershipfield requirements for community credit unions. See
Chartering and Field of Membership, 83 Fed. Reg.
30,289 (June 28, 2018). The 2018 rule eliminated the
portion of the 2016 rule allowing Combined Statistical
Areas to qualify as local communities. Compare 12
C.F.R. pt. 701, app. B, ch. 2 § V.A.2 (2018), with id.
(2019). The 2018 rule preamble did not specifically
discuss the removal but concluded that “[a]ny modification in th[e] final rule is consistent with the District
Court decision” in this action. 83 Fed. Reg. at 30,291.
“Under the mootness doctrine, we cannot decide a
case if ‘events have so transpired that the decision will
neither presently affect the parties’ rights nor have a
more-than- speculative chance of affecting them in the
future.’” Reid v. Hurwitz, 920 F.3d 828, 832 (D.C. Cir.
2019) (citation omitted). The same principle applies to
individual claims. See Tucson Med. Ctr. v. Sullivan,
947 F.2d 971, 977 (D.C. Cir. 1991). Accordingly, if a
rule under review (or a portion of it) is superseded or
amended during an appeal, the proceeding (or relevant part) might be moot. See, e.g., Am. Bankers Ass’n
v. NCUA, 271 F.3d 262, 274 (D.C. Cir. 2001). We
therefore requested supplemental briefing on the issue of appellate jurisdiction.

13a
Based on the government’s submission and representations at oral argument, we hold that the portion
of the appeal related to Combined Statistical Areas is
not moot. “[T]he mere power to [reinstitute] a challenged law is not a sufficient basis on which a court
can conclude that” a challenge remains live. Nat’l
Black Police Ass’n v. District of Columbia, 108 F.3d
346, 349 (D.C. Cir. 1997). The government has stated
that, if we reverse the relevant part of the District
Court’s decision, all three members of the NCUA’s
board intend to reinstitute the Combined Statistical
Area portion of the 2016 rule. See Decl. of Michael
McKenna ¶ 3, ECF No. 1781123; Oral Arg. Recording
11:33-48. Accordingly, City of Mesquite v. Aladdin’s
Castle, Inc., 455 U.S. 283 (1982), governs this case. In
Aladdin’s Castle, the Supreme Court deemed the controversy live in part because the government had
announced “an intention” to restore the rule under
challenge if the lower- court decision were vacated. Id.
at 289 & n.11; see also Am. Bankers Ass’n, 271 F.3d at
274. The NCUA’s submission and representations
evince such an intention here, and the Association –
which bears the “heavy burden” of proving mootness, Friends of the Earth, Inc. v. Laidlaw Envtl.
Servs. (TOC), Inc., 528 U.S. 167, 189 (2000) (citation
omitted) – offers no evidence to the contrary.
The Association attempts to distinguish Aladdin’s
Castle on two grounds, but neither sways us. First, the
Association notes that the city government in Aladdin’s Castle said it would reenact “precisely the same”
law, see 455 U.S. at 289, but that in this case any future notice-and-comment proceedings might produce
a different “local community” definition, perhaps not
even relying on Combined Statistical Areas. After

14a
all, the agency must keep a “flexible and open-minded
attitude” during the process. See Nat’l Tour Brokers
Ass’n v. United States, 591 F.2d 896, 902 (D.C. Cir.
1978). We grant that commenters might convince the
NCUA to change its mind; mann tracht, und Gott
lacht. But that strikes us as speculative as public input
convincing Mesquite legislators to enact a different
law. We do not see Aladdin’s Castle turning on such
conjecture. Instead, we see a live dispute because
there is “no certainty” that the NCUA will forego reinstating the same Combined Statistical Area
definition. Aladdin’s Castle, 455 U.S. at 289; see also
Trinity Lutheran Church of Columbia, Inc. v. Comer,
137 S. Ct. 2012, 2019 n.1 (2017) (holding that the
court must find “absolutely clear that the allegedly
wrongful behavior could not reasonably be expected
to recur” (emphasis added) (quoting Friends of the
Earth, 528 U.S. at 189)). After all, the NCUA continues to defend the definition here. See Knox v. Serv.
Emps. Int’l Union, Local 100, 567 U.S. 298, 307
(2012).
Second, the Association observes that both sides
in Aladdin’s Castle urged the Supreme Court to treat
their dispute as live. In contrast, only the NCUA seeks
to proceed here; the Association would prefer to wait
until the agency reinstitutes the rule. But the existence or absence of jurisdiction does not turn on which
parties challenge or defend it. Cf. Bender v. Williamsport Area Sch. Dist., 475 U.S. 534, 541 (1986).
Because the NCUA remains bound by the lower-court
judgment, the present injury renders irrelevant the
Association’s preference. “Jurisdiction existing,” our
duty to decide the appeal “is ‘virtually unflagging.’”

15a
Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69, 77
(2013) (citation omitted).
In short, we may review the challenge to the rule
change involving Combined Statistical Areas. We see
no jurisdictional issues with the rest of the appeal. We
thus turn to the merits.
III.
We review de novo the District Court’s rulings on
summary judgment. See Loan Syndications & Trading Ass’n v. SEC, 882 F.3d 220, 222 (D.C. Cir. 2018).
We review the administrative record and give “no particular deference” to the District Court’s views.
Oceana, Inc. v. Ross, 920 F.3d 855, 860 (D.C. Cir. 2019)
(citation omitted).
The APA governs this suit. In relevant part, the
statute provides that we “decide all relevant questions
of law” and “interpret . . . statutory provisions.”
5 U.S.C. § 706. We ordinarily set aside agency actions
that are either “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law,” id.
§ 706(2)(A), or “in excess of statutory jurisdiction, authority, or limitations, or short of statutory right,” id.
§ 706(2)(C).
We review the agency rule in accordance with the
familiar Chevron doctrine, a two-prong test for determining whether an agency “has stayed within the
bounds of its statutory authority” when issuing its action. City of Arlington v. FCC, 569 U.S. 290, 297 (2013
(emphasis omitted). At the first step, we determine
“whether Congress has directly spoken to the precise
question at issue,” and we “give effect” to any “unambiguously expressed intent.” Chevron, 467 U.S. at 84243 & n.9.

16a
If we glean no such unambiguous intent, we turn
to the second step and determine “whether the
agency’s answer” to the question “is based on a permissible construction of the statute.” Id. at 843. By
arriving at the second step, we have concluded that
Congress either explicitly or implicitly delegated to
the agency the lawmaking authority to clarify the
statute. We presume that Congress would not authorize the promulgation of an “[im]permissible
construction.” Chevron, 467 U.S. at 843. Accordingly,
we will set aside agency actions based on such a construction, because they are either “not in accordance
with law” or “in excess of statutory jurisdiction.”
5 U.S.C. § 706(2)(A), (C); see also CSX Transp., Inc. v.
Surface Transp. Bd., 754 F.3d 1056, 1063 (D.C. Cir.
2014); Ass’n of Privacy Sector Colls. & Univs. v. Duncan, 681 F.3d 427, 441 (D.C. Cir. 2012).
IV.
For all three challenges, the first step of the Chevron analysis proceeds in the same way. “We begin our
analysis, as always, with the statutory text.” Tesoro
Alaska Co. v. FERC, 778 F.3d 1034, 1038 (D.C. Cir.
2015). Congress having expressly assigned the NCUA
the power to define the challenged terms, see 12 U.S.C.
§ 1759(g)(1), we may proceed to Chevron’s second
prong without further analysis, see U.S. Telecom
Ass’n v. FCC, 825 F.3d 674, 717 (D.C. Cir. 2016);
Rush Univ. Med. Ctr. v. Burwell, 763 F.3d 754, 760
(7th Cir. 2014); Comm’r v. Pepsi-Cola Niagara Bottling Corp., 399 F.2d 390, 393 (2d Cir. 1968) (Friendly,
J.) (“When Congress has used a general term and has
empowered an administrator to define it, the courts
must respect his construction if this is within the
range of reason.”).

17a
An express delegation of definitional power “necessarily suggests that Congress did not intend the
[terms] to be applied in [their] plain meaning sense,”
Women Involved in Farm Econ. v. U.S. Dep’t of Agric.,
876 F.2d 994, 1000 (D.C. Cir. 1989), that they are not
“self-defining,” id., and that the agency “enjoy[s] broad
discretion” in how to define them, Lindeen v. SEC, 825
F.3d 646, 653 (D.C. Cir. 2016). In Chevron terms, Congress through explicit language “has directly spoken
to the precise question” of whether the identified
terms must carry certain meanings. 467 U.S. at 84243. The answer is no. See Buongiorno v. Sullivan, 912
F.2d 504, 509 (D.C. Cir. 1990) (Thomas, J.) (“When
Congress expressly delegates the authority to fill a
gap in a statute, Congress speaks, in effect, directly,
and says, succinctly, that it wants the agency to annotate its words.”). To hold otherwise at the first
Chevron step would “undermine” the ability of Congress to delegate definitional power. Rush Univ. Med.
Ctr., 763 F.3d at 760.
Consequently, we turn to whether the NCUA’s
definitions are “based on a permissible construction of
the statute.” Chevron, 467 U.S. at 843.
V.
Agency interpretations promulgated to fill an explicit legislative gap “are given controlling weight
unless they are arbitrary, capricious, or manifestly
contrary to the statute.” Chevron, 467 U.S. at 844; see
also Pharm. Research & Mfrs. of Am. v. FTC, 790 F.3d
198, 204 (D.C. Cir. 2015).
Under arbitrary and capricious review, “we may
not substitute our own judgment for that” of the
agency. FERC v. Elec. Power Supply Ass’n, 136 S. Ct.

18a
760, 782 (2016); accord Dep’t of Commerce v. New
York, 139 S. Ct. 2551, 2569 (2019). Still, we are “not a
‘rubber stamp,’” Oceana, 920 F.3d at 863; “the agency
must examine the relevant data and articulate a satisfactory explanation for its action,” Motor Vehicle
Mfrs. Ass’n of U.S., Inc. v. State Farm Mut. Auto. Ins.
Co. (State Farm), 463 U.S. 29, 43 (1983). A rule is arbitrary and capricious if (1) the agency “has relied on
factors which Congress has not intended it to consider”; (2) the agency “entirely failed to consider an
important aspect of the problem”; (3) the agency’s explanation “runs counter to the evidence before the
agency”; or (4) the explanation “is so implausible that
it could not be ascribed to a difference in view or the
product of agency expertise.” Id.
In turn, we assess three definitional changes in
the 2016 rule: (1) qualifying Combined Statistical Areas as local communities; (2) eliminating the core
requirement for local communities based on Core
Based Statistical Areas; and (3) raising the population
cap for rural districts. We sustain the first and third
amendments in full. As for the second, we hold that it
is rationally related to the Act’s text and purposes, but
that it is insufficiently explained.
A.
The District Court rejected the first change because it approved certain Combined Statistical Areas
“no matter how geographically dispersed and unconnected” the “members may be.” Am. Bankers Ass’n,
306 F. Supp. 3d at 61. To the court, the approval did
not fit with the term “local community,” which, in its
view, “encompass[es] an area no larger than a county.”
Id. at 58, 61. We respectfully disagree.

19a
The NCUA possesses vast discretion to define
terms because Congress expressly has given it such
power. But the authority is not boundless. The agency
must craft a reasonable definition consistent with the
Act’s text and purposes; that is central to the review
we apply at Chevron’s second step. Here, the NCUA’s
definition meets the standard.
We first focus on the text. Congress introduced the
phrase “local community” in the 1998 amendments.
The word “community” had a broad scope at the time.
It meant not only “society at large” but also a “body of
individuals organized into a unit or manifesting
usu[ally] with awareness of some unifying trait.” See
Community, WEBSTER’S THIRD INTERNATIONAL DICTIONARY OF THE ENGLISH LANGUAGE UNABRIDGED 460
(1993). The group could be “united by historical consciousness or . . . common social, economic, and
political interests.” Id. But the unifying trait could
also be simply “living in a particular place or region.”
Id.
The NCUA has recognized that the modifier “local” “reflects congressional intent that it takes ‘a more
circumspect and restricted approach to chartering
community credit unions.’” Am. Bankers Ass’n, 271
F.3d at 273 (citation omitted); see also Oral Arg. Recording 3:16-18. Indeed, Congress made clear its
intention to “modif[y]” the “current law regarding
community credit unions” by adding the word “local”
to community. S. REP. NO. 105-193, at 6-7.
Insertion of the modifier “local” before “community” implies that the community “relate[s] to” a
“particular limited district” or is “confined to a particular place.” Local, WEBSTER’S THIRD INTERNATIONAL

20a
DICTIONARY OF THE ENGLISH LANGUAGE UNABRIDGED
1327 (1993). But that place need not be the size of a
county, as the District Court held. The Supreme
Court has recognized that the geographical areas
“need not be small.” First Nat’l Bank III, 522 U.S. at
492. And if Congress wanted a local community to correspond to a particular geographical unit, such as a
county, “‘it easily could have written’ that limitation
explicitly.” NCUA Br. 25-26 (quoting Ali v. Fed. Bureau of Prisons, 552 U.S. 214, 227 (2008)); see also
Credit Union Nat’l Ass’n Amicus Br. 15. The NCUA
sensibly reads the term “local” to mean simply that
the community, regardless of shape or size, should be
neither “broad” nor “general.” Local, SUPRA, at 1327.
To be clear, we do not hold today that the NCUA
must consider only bonds and social connections as
understood in 1998. The parties agree, and thus we
assume, that the NCUA, despite its expressly delegated authority, must adopt a definition consistent
with what the term “local community” meant in 1998,
the time of its adoption.
After consulting state statutes and invoking the
canon of noscitur a sociis, the District Court developed
a rather size- restrictive meaning for the phrase. See
Am. Bankers Ass’n, 306 F. Supp. 3d at 57-59. But we
do not think that defining a “local community” to refer
to an area larger than a county is an unreasonable interpretation of the Act’s text.
We receive little guidance from the state statutes
in effect in 1998. Indeed, some of the statutes considered “local communities” to be quite large. See, e.g.,
ALASKA STAT. § 18.66.990(7) (1998) (defining “local

21a
community entity” as “a city or borough or other political subdivision of the state, a nonprofit organization,
or a combination of these” (emphasis added)); see also
NCUA Br. 25 n.4.
We also reject the District Court’s invocation of
the noscitur a sociis canon. When several terms “are
associated in a context suggesting that [they] have
something in common, they should be assigned a permissible meaning that makes them similar.” ANTONIN
SCALIA & BRYAN A. GARNER, READING LAW: THE INTERPRETATION OF LEGAL TEXTS 195 (2012). But the
“substantive connection, or fit, between” the terms
here – local community, neighborhood, and rural district – is “not so tight or so self-evident.” Graham Cty.
Soil & Water Conservation Dist. v. United States ex rel.
Wilson, 559 U.S. 280, 288 (2010). Only the word
“neighborhood” has a dictionary definition clearly suggesting a region of small size; the phrase “local
community” does not, as we have explained above, and
neither does “rural district,” as we explain below. A
size restriction would impermissibly “submerge[]” the
independent “character” of the latter two terms. Babbitt v. Sweet Home Chapter of Cmtys. for a Great Or.
(Sweet Home), 515 U.S. 687, 702 (1995) (citation omitted).
The Association also points to other textual indicators. But contrary to what it suggests, see Am.
Bankers Ass’n Br. 27-28, we see nothing in the record
suggesting that “local community” is a term of art. The
Association also says the usage of word “local” in two
other federal statutes indicates that rules permitting
coverage areas of larger than a county would be manifestly contrary to the Act. See id. at 32; see also 15
U.S.C. § 2203 (1998) (defining “local” as “city, town,

22a
county, . . . or other political subdivision of a State”); 18
U.S.C. § 666 (1998) (same). (The Association pointed
to other laws, but they did not exist in 1998. See National Defense Authorization Act for Fiscal Year 2010,
Pub. L. No. 111-84, § 4703(b), 123 Stat. 2190, 2837
(2009); PRIME Act Grants, 66 Fed. Reg. 29,010 (May
29, 2001).) True enough. But the two statutes address
materially distinct issues – fire prevention and embezzlement – and thus do not indicate that the term
“local” must imply a size limitation here. See Envtl.
Def. v. Duke Energy Corp., 549 U.S. 561, 574 (2007)
(“[M]ost words have different shades of meaning and
consequently may be variously construed . . . in different statutes . . . .” (citation omitted)).
In addition to being consistent with the Act’s text,
the Combined Statistical Area definition rationally
advances the Act’s underlying purposes. In the 1998
amendments, Congress made two relevant findings
about purpose. First, legislators found “essential” to
the credit-union system a “meaningful affinity and
bond among members, manifested by a commonality
of routine interaction[;] shared and related work experiences, interests, or activities[;] or the
maintenance of an otherwise well-understood sense of
cohesion or identity.” § 2, 112 Stat. at 914. Second,
Congress highlighted the importance of “credit union
safety and soundness,” because a credit union on firm
financial footing “will enhance the public benefit that
citizens receive.” Id. The legislative history also confirms the importance of common bonds, see S. REP. NO.
73-555, at 2; see also H.R. REP. NO. 105-472, at 12;
H.R. REP. NO. 73-2021, at 2; 144 CONG. REC. S9094
(daily ed. July 28, 1998) (statement of Sen. Mikulski);
id. at S8971-72 (daily ed. July 24, 1998) (statement of

23a
Sen. Moseley-Braun), and economic “integrity,”
S. REP. NO. 105-193, at 3; see also 144 CONG. REC.
S9094 (statement of Sen. Mikulski); id. at S8972
(statement of Sen. Moseley-Braun), to federal credit
unions.
We recognize that there may be some tension between the Act’s principal purposes: A credit union
with exceedingly close ties among its members is unlikely to have a large enough customer base to thrive
economically. To the extent that such tension exists,
the Act leaves to the NCUA to strike a reasonable balance. Congress was well aware that a viable credit
union might serve a relatively large geographical
area. See, e.g., H.R. REP. NO. 73-2021, at 2 (“[T]here
are cases in which communities and organizations
cross State lines.”).
The NCUA did just that in promulgating the Combined Statistical Area definition. That definition
allows for larger community credit unions; the decision is consistent with decades of history promoting
the economic viability of credit unions in the face of
banks and other competing financial institutions.
Nonetheless, the NCUA struck a balance by ensuring
that members within the local community maintain
somewhat of a commuter relationship with each
other. As the Association even acknowledges, commuting patterns “may sometimes serve as a proxy for
community interaction.” Am. Bankers Ass’n Br. 38
n.25. We see nothing irrational about adopting the
factor as a proxy for the common bond contemplated
by Congress. Perhaps we would have made a different
call had we been the policymakers. Perhaps we would
have sought a tighter bond. Or perhaps we would not

24a
have prioritized credit-union growth. See Iowa Bankers Ass’n Amicus Br. 24-25. But we must “refrain from
substituting [our] own interstitial lawmaking for
that” of the agency. Household Credit Servs., Inc. v.
Pfennig, 541 U.S. 232, 244 (2004) (citation omitted).
The NCUA also reasonably explained its amendment to the “local community” definition. To begin
with, the agency reasonably circumscribed the size of
a local community under the Combined Statistical
Area rule by imposing a 2.5 million- person population
limit. Used by the OMB in analogous circumstances,
the cap is a “logical breaking point in terms of community cohesiveness with respect to a multijurisdictional
area.” Chartering and Field of Membership for Federal Credit Unions, 75 Fed. Reg. 36,257, 36,259 (June
25, 2010). Moreover, the NCUA reasonably relied on
its prior experience with Core Based Statistical Areas,
which no party disputes can serve as local communities under the Act. The agency noted that the average
geographic size of Combined Statistical Areas with
populations of up to 2.5 million people is 4,553
square miles, and that the average size of the Core
Based Statistical Areas approved by the NCUA as local communities is 4,572 square miles. See 81 Fed.
Reg. at 88,414-15. Given that similarity in size, the
NCUA reasonably considered adopted its populationlimited Combined Statistical Areas standard.
Finally, the NCUA’s definition does not readily
create general, widely dispersed regions. Cf. First
Nat’l Bank III, 522 U.S. at 502 (indicating that community credit unions may not be “composed of
members from an unlimited number of unrelated geographical units”). Combined Statistical Areas are

25a
geographical units well-accepted within the government. See 81 Fed. Reg. at 88,414. Because they
essentially are regional hubs, the Combined Statistical Areas concentrate around central locations. The
OMB carved out the areas so that their constituent
parts share commuting ties and they reflect “broader
social and economic interactions.” OFFICE OF MGMT. &
BUDGET, SUPRA, at app. 2-3. The NCUA rationally believed that such “real-world interconnections” would
qualify as the type of mutual bonds suggested by the
term “local community.” Credit Union Nat’l Ass’n
Amicus Br. 9. Thus, the agency reasonably determined that Combined Statistical Areas “simply
unif[y], as a single community,” already connected
neighboring regions. See 81 Fed. Reg. at 88,415.
The Association raises a potpourri of objections to
the NCUA’s decision-making. See Am. Bankers Ass’n
Br. 33-48. Virtually all of its gripes are forfeited because it failed first to raise them to the agency, see,
e.g., Koretoff v. Vilsack, 707 F.3d 394, 397-98 (D.C. Cir.
2013) (per curiam), or lack merit because they involve
outdated “local community” definitions, which either
did not allow for the qualification of certain geographical areas as local communities or lacked a population
cap of 2.5 million people.
But one of the complaints is “deserving of sustained consideration.” Ortiz v. United States, 138 S.
Ct. 2165, 2173 (2018). The Association contends that
some large Combined Statistical Areas are so sprawling that the NCUA’s definition, which treats a 2.5million-person portion of them as a local community,
must be unreasonable. Recall that a Combined Statistical Area is a regional hub with more than one urban
center. Under the OMB’s technical specifications,

26a
each center need not be connected to every other by
commuting ties; rather, each need only have ties to
one other center within the hub. As the Association
colorfully puts it, the OMB may designate as a Combined Statistical Area a mere “daisy chain” of urban
centers “that are linked to their neighbors but have
nothing to with those at the other end of the chain.”
See Am. Bankers Ass’n Br. 36 (citation omitted). Theoretically, the Association continues, certain 2.5million-person communities might bring together
parts of different urban centers with no connection
with one another. The Association also suggests that
the rule might permit local communities comprising
non-contiguous portions of a Combined Statistical
Area. See id. at 39.
We understand the Association’s argument to be
attacking the Combined Statistical Area definition as
unreasonable. To the Association, the NCUA failed
sufficiently to consider the potential for the rule to create unreasonable results. One hypothetical
application disturbed the District Court here: the prospect that, within the Combined Statistical Area
including the District of Columbia and counties from
three states (Maryland, Pennsylvania, and Virginia),
one could create a local community bringing together
Doylesburg, Pennsylvania, and Partlow, Virginia,
towns located 200 miles apart. See Am. Bankers Ass’n,
306 F. Supp. 3d at 59-60.
We might well agree with the District Court that
the approval of such a geographical area would contravene the Act. But even so, the Association would need
much more to mount its facial pre-enforcement challenge in this case. As the Supreme Court repeatedly

27a
has held, “the fact that petitioner can point to a hypothetical case in which the rule might lead to an
arbitrary result does not render the rule” facially invalid. Am. Hosp. Ass’n v. NLRB, 499 U.S. 606, 619
(1991); see also EPA v. EME Homer City Generation,
L.P. (EME Homer), 572 U.S. 489, 524 (2014) (“The
possibility that the rule, in uncommon particular applications, might exceed [the agency]’s statutory
authority does not warrant judicial condemnation of
the rule in its entirety.”); INS v. Nat’l Ctr. for Immigrants’ Rights, Inc., 502 U.S. 183, 188 (1991) (“That
the regulation may be invalid as applied in s[ome]
cases . . . does not mean that the regulation is facially
invalid because it is without statutory authority.”); cf.
Barnhart v. Thomas, 540 U.S. 20, 29 (2003) (“Virtually every legal (or other) rule has imperfect
applications in particular circumstances.”).
Here, the Association’s complaint and the District
Court’s accompanying worry strike us as too conjectural. The NCUA must assess the “economic
advisability of establishing” the proposed credit union
before approving it, 12 U.S.C. § 1754, and as part of
the assessment, the organizers must propose a “realistic” business plan showing how the institution and
its branches would serve all members in the local community, see 12 C.F.R. pt. 701, app. B, ch. 1 § IV.D. The
Association has failed to demonstrate the plausibility
of a local community that is defined like the hypothetical narrow, multi-state strip and accompanies a
realistic business plan. And if the agency were to receive and approve such an application, a petitioner
can make an as-applied challenge. See, e.g., EME
Homer, 572 U.S. at 523-24; Buongiorno, 912 F.2d at
510. The Association has succeeded in such challenges

28a
in the past. See, e.g., Am. Bankers Ass’n v. NCUA, No.
1:05-CV-2247, 2008 WL 2857678, at *1 (M.D. Pa. July
21, 2008); Am. Bankers Ass’n v. NCUA, 347 F. Supp.
2d 1061, 1074 (D. Utah 2004). Thus, we reject the facial attack on the amended “local community”
definition involving Combined Statistical Areas.
B.
We turn to the next rule change. The District
Court upheld the eliminated core requirement for a local community based on a Core Based Statistical
Area. The court acknowledged that defining a local
community without its urban core “does not alter the
. . . common bond” shared by the members in the remainder. Am. Bankers Ass’n, 306 F. Supp. 3d at 6263. Meanwhile, the court accepted the agency’s response to the claim that the new definition
encouraged redlining – a broad category of lending
practices with negative impact on “areas where lowincome and minority populations are concentrated.”
Id. at 65 (quoting 81 Fed. Reg. at 88,413).
Like the District Court, we hold that the eliminated core requirement is consistent with the Act’s
text and purposes. Still, we see merit in the Association’s redlining argument and thus hold the
definitional change to be arbitrary and capricious.
1.
We will sustain the eliminated core requirement
if it reflects a reasonable interpretation of “local community” that is rationally related to the dual purposes
of promoting credit- union growth and ensuring some
cohesion among members. It does. Omission of the urban core from proposed geographical area will permit
community credit unions to reach new members in the

29a
suburban parts of the Core Based Statistical Area and
thus to maintain a healthy membership. Because the
suburbs under the OMB’s definition have substantial
commuting ties to the urban cluster, they all will be
“within a feasible commuting radius” and thus
“share[] at least some geographic ties.” Am. Bankers
Ass’n, 306 F. Supp. 3d at 64. Those bonds do not disappear if the local community lacks the core. The
Association seeks greater “assurance[s]” of a meaningful bond among members, Am. Bankers Ass’n Br. 6667; see also Am. Bankers Ass’n Reply 11, but we do not
replace the agency’s policy judgment with ours.
We also do not believe that the eliminated core requirement would create sprawling, boundless
geographical regions. No one disputes that, as a general matter, a membership area comprising an intact
Core Based Statistical Area will satisfy any definition
of “local community.” If the local community with the
core poses no problem, we fail to see how a local community without one would. And even as to Core Based
Statistical Areas that do not qualify as local communities (because they have populations of more than 2.5
million), the geographical ties ensure that the proposed membership area will still be contained within
the boundaries of a single, well-recognized metropolitan region. A single region is not what concerned the
Supreme Court in First National Bank III. See 522
U.S. at 502.
The Association objects to the expansive hypothetical membership fields, highlighting two Core Based
Statistical Areas whose populations exceed the
NCUA’s cap of 2.5 million. The Association asserts
that the rule change “makes it much easier to unite
far-distant edges” of those sprawling areas in a single

30a
membership area. Am. Bankers Ass’n Reply 9. Fair
point. But economic realities do not make it plausible
that organizers would propose such a local community
or that the NCUA would approve it. Like the Combined Statistical Area definition, the eliminated core
requirement does not become facially infirm because
of farfetched hypotheticals. To the extent they occur
in the future, troublesome rule applications might be
subject to as-applied challenges. See Am. Bankers
Ass’n, 271 F.3d at 267.
2
Despite the eliminated core requirement’s consistency with the Act, we cannot sustain the
definitional change because the NCUA has not adequately explained it.
The Association contends that the rule change “effectively allows credit unions to engage in ‘redlining’ by
denying service to urban areas with large numbers of
minority and lower- income residents.” Am. Bankers
Ass’n Br. 65. The NCUA attempted to address this
concern in the preamble. At first blush, the agency’s
statements appear persuasive. Still, the Association
persuasively argues that the response fails to “consider an important aspect” of the redlining issue or is
otherwise “so implausible” as to be unreasonable.
State Farm, 463 U.S. at 43. Thus, the eliminated core
requirement is arbitrary and capricious.
During the notice-and-comment proceedings, the
Association warned against redlining and objected
that community credit unions could now “serv[e]
wealthier suburban counties and exclud[e] markets
containing low- income and minority communities

31a
that reside in the core area.” Letter from James Chessen, Exec. Vice President & Chief Economist, Am.
Bankers Ass’n, to Gerard S. Poliquin, Sec’y of the
Board, Nat’l Credit Union Admin. (Feb 5, 2016), Am.
Bankers Ass’n v. NCUA, No. 1:16-cv-02394-DLF
(D.D.C. filed Aug. 23, 2017), ECF No. 26-1 at 228.
Fairly read, the Association’s objection is not to traditional redlining, which encompasses the refusal to
make loans in low-income or minority neighborhoods
within a service area, see Baradaran, supra, at 494;
see also Cassity, supra, at 348, 355. Federal credit unions “cannot ‘redline’” in the traditional sense because
“everyone in a credit union’s ‘community’ is a member
who is eligible to take advantage of credit union services” and credit unions “by definition cannot reach
beyond their member communities to offer credit to
the general public.” Cassity, supra, at 355. But a community credit union can engage in more
unconventional redlining practices: “gerrymander[ing] to create its own community of exclusively
higher-income members.” Id. at 359. We think it evident that the Association was focusing on such
gerrymandering.
In response, the NCUA acknowledged that it originally kept the core requirement as a benefit to “lowincome and underserved populations.” 81 Fed. Reg. at
88,413. Some commenters criticized the core requirement as failing to achieve that goal; it caused
community credit unions “to sacrifice service to other
areas” within the Core Based Statistical Area, id., and
such service arguably could benefit poor and minority
customers residing outside the core, see id. at 88,414
(remarking on the importance of credit unions

32a
“providing financial services to low income and underserved populations without regard to where they are
located within a community, i.e., beyond its ‘core
area’”).
Still, the agency dismissed the redlining concern
on other grounds, pointing to its “supervisory process
to assess [credit- union] management’s efforts to offer
service to the entire community [the credit union]
seeks to serve.” Id. The NCUA focused on two aspects
of its process. First, the agency touted its “annual
evaluation,” which “encompasses [the credit union]’s
implementation of its business and marketing plans.”
Id. Citing its “[e]xperience” as support, the agency
identified the evaluation as a “more effective means”
than a core requirement to “ensur[e] that the low-income and underserved populations are fairly served.”
Id. Indeed, prior evaluations confirm that the agency
has had “success in providing financial services to lowincome and underserved populations without regard
to where they are located within” the membership
area. Id. at 88,414. Second, the NCUA noted its “mandate to consider member complaints alleging
discriminatory practices affecting low-income and underserved populations, such as redlining, and to
respond as necessary when such practices are shown
to exist.” Id.
Both aspects of the NCUA’s supervisory process
fail to address the redlining issue raised by the Association. The annual evaluation process might be an
adequate response to traditional redlining, because it
might ensure that community credit unions adequately serve poor and minority residents living in
their local communities. But we do not see how it fixes

33a
gerrymandering or the potential discriminatory economic impact on urban residents. See State Farm, 463
U.S. at 43 (requiring the agency to consider relevant
factors). The annual evaluation process necessarily
does not come into effect until the NCUA already has
approved the charter, business plan, and proposed local community. See Iowa Bankers Ass’n Amicus Br.
12. And nothing in the record suggests that business
plans may focus on residents residing outside the finalized membership area; in fact, the law forbids
federal credit unions from serving those residents.
The complaint process also does not work in the
gerrymandering context. As the preamble points out,
complaints are raised by the membership, which
would not include the affected urban residents because of the rule change. It seems quite implausible,
absent some contrary evidence the agency failed to detail, that members will file grievances based on
gerrymandering harms suffered by residents outside
the coverage area. See State Farm, 463 U.S. at 43 (rejecting implausible explanations).
The NCUA attempts to defend the rule change by
offering a buffet of other potential rationales in its
briefing and at oral argument. They all fail because
the agency did not adopt them when promulgating the
rule change. See State Farm, 463 U.S. at 43 (noting
that courts may not “supply a reasoned basis for the
agency’s action that the agency itself has not given”
(quoting SEC v. Chenery Corp., 332 U.S. 194, 196
(1947))). We pause, though, to caution the NCUA
about two proffered reasons. At oral argument, the
government counsel suggested that the agency may
reject proposed local communities if it suspects they
discriminate against residents in the urban core. See

34a
Oral Arg. Recording 5:28-49, 13:43-14:09. But current
reviewing guidelines do not indicate that the agency
looks for such discrimination. See 12 C.F.R. pt. 701,
app. B, ch. 1 § VII.A. And the NCUA made the opposite representations to the District Court. See
Transcript of Motion Hearing at 48:23- 49:7 (“[District
Court]: . . . If a credit union comes to the agency and
says I want to serve X area, either in a rural district or
a combined statistical area, and they meet the definition, the agency has no authority to reject that
application, as long as the credit union can demonstrate that they can serve the area? [NCUA]: . . .
I think that’s probably right, your Honor.”), Am.
Bankers Ass’n v. NCUA, No. 1:16-cv-02394- DLF
(D.D.C. filed Mar. 27, 2018), ECF No. 33. The government counsel also suggested that community credit
unions already cover the vast majority of urban cores.
See Oral Arg. Recording 8:10-22, 12:30-41; see also id.
at 7:39-8:01; cf. NCUA Reply 27-28. Perhaps, but the
current record does not support the assertion.
C.
Finally, the District Court rejected the increased
population cap for rural districts. The court worried
that a rural district satisfying the new, higher limit
could be too large or could contain “numerous urban
centers.” Am. Bankers Ass’n, 306 F. Supp. 3d at 69.
Because the rule qualified certain districts “no matter
[their] geographic size or the number or size of metropolitan areas falling within [their] proposed
boundaries,” the court held that the NCUA’s new definition is unreasonable. Id. at 69-70. But in our view,
the new “rural district” definition is reasonable.

35a
As suggested above, we assume that the NCUA
must adopt definitions consistent with the statutory
terms as understood in 1934, not today. The terms
“rural” and “district” do not connote specific population
or geographical constraints. See First Nat’l Bank III,
522 U.S. at 492 (noting that markets “need not be
small”). A “district” means a “portion of a state,
county, country, town, or city . . . made for administrative, electoral, or other purposes.” District, WEBSTER’S
NEW INTERNATIONAL DICTIONARY OF THE ENGLISH
LANGUAGE 649 (2d ed. 1934) (emphasis added). The
district may be “of undefined extent.” Id. Meanwhile,
“rural” indicates a “country” or “agricultur[al]” lifestyle, as opposed to that of a “city or town.” Rural,
WEBSTER’S NEW INTERNATIONAL DICTIONARY OF THE
ENGLISH LANGUAGE 1861 (2d ed. 1934). “Rural” lands
generally “resembl[e]” the “country[side].” Id.
Nothing about the 1-million-person cap prevents
the rural district from resembling the countryside.
And one of the unchallenged restrictions helps provide
a rural character to such districts. Either most residents in the proposed district live on rural land, or the
population density is 100 or fewer people per square
mile. See 81 Fed. Reg. at 88,440. Accordingly, even if
most residents live on urban areas in the rural district, those areas will be surrounded by rural land.
That’s because 100 people per square mile – or one
person for every six or so acres – is a rural population
density.
As for size, the contemporaneous definition of
“district” reassures us that rural districts may cross
state lines. And a second unchallenged restriction assures that the 1-million- person cap will not support

36a
gigantic or straggly rural districts. As the rule explains, the boundaries of a community credit union’s
district may not “exceed the outer boundaries of the
states” immediately surrounding the state where the
proposed credit union would have its headquarters. 81
Fed. Reg. at 88,440. Thus, even though the population
density of the entire United States is less than 100
people per square mile, see NCUA Br. 56 n.44; Oral
Arg. Recording 39:34-38, the geographical limitation
forces a rural district to be much smaller. We are confident that such districts will not be so enormous as to
amount to federations of “unrelated geographic units.”
See First Nat’l Bank III, 522 U.S. at 502.
In arguing that the amended “rural district” definition is unreasonable, the Association relies heavily
on the interpretive analysis performed by the District
Court. See Am. Bankers Ass’n, 306 F. Supp. 3d at 6769. The court’s core contention is that we must construe “rural” and “district” together as a specialized
phrase that meant, in 1934, an “area[] much smaller
than a state.” Id. at 68. For support, the District Court
not only consulted two 1934-era dictionaries, results
of a Westlaw search of contemporaneous opinions, and
a database containing historical uses of the phrase,
but also invoked the noscitur a sociis canon. See id. at
67-69.
The proffered definitional evidence is pretty thin.
The 1934-era dictionaries described what the specialized phrase “rural district” meant in Great Britain,
not in the much larger and more expansive United
States, which by the 1930s encompassed forty-eight
continental states. See, e.g., Rural District, WEBSTER’S
NEW INTERNATIONAL DICTIONARY OF THE ENGLISH
LANGUAGE 1861 (1934) (“in England, a subdivision of

37a
an administrative county embracing . . . county parishes”).
The proffered Westlaw search results included
scores of federal and state judicial and administrative
opinions. See Plaintiff’s Supplemental Memorandum
app. 6, Am. Bankers Ass’n v. NCUA, No. 1:16-cv02394-DLF (D.D.C. filed Mar. 16, 2018), ECF No. 326. But we find little of use in those documents. Many
of those opinions do not discuss size or population.
See, e.g., Nicolai v. Wis. Power & Light Co., 269 N.W.
281, 282-83 (Wis. 1936). Those that do involve specific
rural districts whose sizes were between a town and a
state. See, e.g., Sarther Grocery Co. v Comm’r, 22
B.T.A. 1273, 1274 (1931). But none declares that rural
districts by definition are restricted to any particular
size or population.
The District Court next turned to the Corpus of
Historical American Usage, a free and public online
database. See Am. Bankers Ass’n, 306 F. Supp. 3d at 68
& n.5. The database notes 197 mentions of the phrase
in the first half of the twentieth century and only 37
in the second. See Search Results for RURAL DISTRICTS AND RURAL DISTRICT, CORPUS OF
HISTORICAL AMERICAN ENGLISH, https://www.englishcorpora.org/coha/ (follow “List” hyperlink; then search
matching strings field for “RURAL DISTRICT”). The
perceived drop-off led the District Court to determine
that, “even if rural district does not carry meaning distinct from its individual words today, it did in 1934.”
Am. Bankers Ass’n, 306 F. Supp. 3d at 68.
Although federal courts may use “crude[]”
searches on databases to learn of ambiguities in a
statutory term, Muscarello v. United States, 524 U.S.

38a
125, 129-30 (1998), the search here did not suffice to
show that the agency’s definition was unreasonable.
Much more is required to cabin the agency’s discretion. A search of a commercial database, ProQuest,
reveals that the phrase appeared at least 500 times in
the second half of the century. We are not confident
that the proffered evidence establishes a particular
historical trend.
The District Court lastly invoked noscitur a sociis.
See Am. Bankers Ass’n, 306 F. Supp. 3d at 68-69. The
canon is inapposite. Recall that the term “rural district” was listed with “community,” not “local
community,” in 1934. At the time, “community” could
refer to “[s]ociety at large” or a “commonwealth or
state.” Community, WEBSTER’S NEW INTERNATIONAL
DICTIONARY OF THE ENGLISH LANGUAGE 452 (1934).
Indeed, we said that the word is “too indefinite to be
used for purposes of exact measurement in terms of
acres or square miles.” Lukens Steel Co. v. Perkins,
107 F.2d 627, 631 (D.C. Cir. 1939), rev’d sub nom., Perkins v. Lukens Steel Co., 310 U.S. 113 (1940). Thus,
we do not see size or population as a connection between the terms.
The increased population cap is consistent with
not only the Act’s text but also its purposes. For instance, as the preamble noted, the expanded
definition allows community credit unions in rural districts to reach more “persons of modest means who
may reside” in those areas. 81 Fed. Reg. at 88,416; see
also § 2(1), (2), 112 Stat. at 913.
And the change is neither arbitrary nor capricious. The new rule explains that it provides a “level

39a
of operating efficiencies and scale” making rural districts attractive options for prospective credit unions.
81 Fed. Reg. at 88,416. “[A] sufficiently large population base is essential to enable” them “to offer
financial services economically.” Id. at 88,417. The
NCUA also chose the 1-million figure based on prior
experience. The agency noted that it had approved of
eight districts with populations of more than 250,000,
and that one of them already had exceeded 1 million.
See id. “Having set a 1 million precedent in one state,”
the agency felt justified in having a “fixed 1 million
population cap for the other 49 states.” Id. (emphasis
added). We cannot say this policy choice lacks rational
explanation.
The Association says the NCUA failed to consider
prior agency decisions. See Am. Bankers Ass’n Br. 61.
But we see no discrepancy and thus summarily reject
the objection. The Association also turns to troubling
hypothetical examples of rural districts with unruly
shapes and those with dense urban areas such as Denver, Colorado. See NCUA Br. 55-61; Oral Arg.
Recording 37:55-38:05. Again, such implausible outliers do not impugn the rule’s general reasonableness.
VI.
We now consider the remedy. To sum up, we hold
that defining certain Combined Statistical Areas or
portions of them as local communities and raising the
population cap for rural districts are consistent with
the Act and reasonably explained. Thus, we sustain
both aspects of the challenged rule. We also leave undisturbed the portion of the District Court’s opinion
that the parties do not contest on appeal.

40a
But we deem the eliminated core requirement to
be arbitrary and capricious. When a rule is contrary
to law, the “ordinary practice is to vacate” it. United
Steel v. Mine Safety & Health Admin., 925 F.3d 1279,
1287 (D.C. Cir. 2019); see also 5 U.S.C. § 706(2) (noting that the “reviewing court shall . . . set aside”
unlawful agency action). But in “rare cases,” we will
opt instead to remand without vacating the rule, so
that the agency can “correct its errors.” United Steel,
925 F.3d at 1287; see also 5 U.S.C. § 702 (“Nothing
herein . . . affects . . . the power or duty of the court to
. . . deny relief on any . . . appropriate . . . equitable
ground . . . .”); Oglala Sioux Tribe v. U.S. Nuclear Regulatory Comm’n, 896 F.3d 520, 536 (D.C. Cir. 2018). In
considering whether to adopt the latter equitable remedy, we balance “(1) the seriousness of the deficiencies
of the action, that is, how likely it is the agency will be
able to justify its decision on remand; and (2) the disruptive consequences of vacatur.” United Steel, 925
F.3d at 1287 (citation omitted). A strong showing of
one factor may obviate the need to find a similar showing of the other. See, e.g., Fox Television Stations, Inc.
v. FCC, 280 F.3d 1027, 1049 (D.C. Cir. 2002) (holding
that, because the agency likely could justify its action
on remand, the potential for disruption was “only
barely relevant”); Allied-Signal, Inc. v. U.S. Nuclear
Regulatory Comm’n, 988 F.2d 146, 152 (D.C. Cir.
1993) (determining that, because vacatur would give
regulated parties a “peculiar windfall,” the meager
chance of justifying the action was given “little
weight” in the remedial analysis).
The NCUA has not requested remand without vacatur in this case. But because we have a “duty” to
ensure the propriety of the APA remedy, 5 U.S.C.

41a
§ 702, we hold that we have the discretion to raise the
issue sua sponte, cf. Igonia v. Califano, 568 F.2d 1383,
1387 (D.C. Cir. 1977); Gaddis v. Dixie Realty Co., 420
F.2d 245, 247 (D.C. Cir. 1969) (per curiam). Remand
without vacatur is appropriate here.
We conclude that the NCUA might be able to offer
a satisfactory reason on remand. And as for disruptive
effect, we perceive a substantial likelihood that vacating the rule could make it more difficult for some poor
and minority suburban residents to receive adequate
financial services. Even temporarily depriving these
members of the opportunity is inequitable, because it
would “set back” the Act’s objective of offering financial services to people of small means. See Nat’l Res.
Def. Council v. EPA, 489 F.3d 1364, 1374 (D.C. Cir.
2007); see also Advocates for Highway & Auto Safety
v. Fed. Motor Carrier Safety Admin., 429 F.3d 1136,
1152 (D.C. Cir. 2005) (declining to vacate rule because, in the interim, it “may do some good, if it does
anything at all”).
Given the potential for sufficient justification and
the substantial likelihood of disruptive effect, we have
a rare case in which vacatur is inappropriate. See
United Steel, 925 F.3d at 1287. Thus, we remand without vacating the relevant part of the 2016 rule. We
trust that the agency will act expeditiously. See EME
Homer City Generation, L.P. v. EPA, 795 F.3d 118, 132
(D.C. Cir. 2015).

42a
*

*

*

In short, we reverse the challenged portions of the
District Court’s summary judgment order. With respect to the qualification of certain Combined
Statistical Areas as local communities and the increased population cap for rural districts, we direct
the District Court to issue summary judgment in favor
of the NCUA. As to the elimination of the urban-core
requirement for local communities based on Core
Based Statistical Areas, we direct the District Court
to issue summary judgment in favor of the Association
and to remand, without vacating, the relevant portion
of the 2016 rule for further explanation.
So ordered.

43a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
AMERICAN BANKERS
ASSOCIATION,
Plaintiff,
v.
Civil Action No.
NATIONAL CREDIT UN16-2394 (DLF)
ION ADMINISTRATION,
Defendant.
MEMORANDUM OPINION
The Federal Credit Union Act limits membership
in certain credit unions to persons or organizations
within a “well-defined local community, neighborhood, or rural district” and requires the National
Credit Union Administration (NCUA) to define that
phrase by regulation. 12 U.S.C. § 1759(b)(3), (g)(1). At
issue is an NCUA rule (the Rule) that broadens the
agency’s definitions of local community and rural district. 81 Fed. Reg. 88,412, 88,440 (Dec. 7, 2016).
Before the Court are cross-motions for summary
judgment filed by the American Bankers Association
(ABA) and the NCUA. Dkt. 14; Dkt. 19. The ABA challenges four definitional decisions made by the NCUA
in the Rule. The Court concludes that two of those definitional decisions violate the Administrative
Procedure Act by exceeding the agency’s statutory authority. Accordingly, the Court will grant in part and
deny in part the ABA’s motion for summary judgment,

44a
and will grant in part and deny in part the NCUA’s
cross-motion for summary judgment.
I.

BACKGROUND

Federal credit unions are mutually-owned financial institutions chartered and regulated by the
NCUA. They offer many of the consumer products and
services offered by other depository institutions, such
as the banks represented by the ABA. U.S. Dep’t of
the Treasury, Comparing Credit Unions with Other
Institutions 19 (Jan. 2001). Federal credit unions and
banks differ, however, in a few ways. Federal credit
unions enjoy the advantage of exemption from federal,
state, and local taxes, with few exceptions. 12 U.S.C.
§ 1768. But they face limitations on their commercial
lending and securities activities, the terms of their interest rates, and—central to this case—the areas and
categories of persons that they can serve. Id. § 1759;
see U.S. Dep’t of the Treasury, Comparing Credit Unions with Other Institutions 19.
This case concerns community credit unions,
which are federal credit unions limited to serving
“persons or organizations within a well-defined local
community, neighborhood, or rural district.” 12 U.S.C.
§ 1759(b)(3). In undertaking the cartographic challenge of defining the local community term, the NCUA
has relied on statistical measures established by the
Office of Management and Budget (OMB). Several geographic measures are relevant to this suit:
•

Core-Based Statistical Area is a category composed of the country’s Metropolitan Statistical
Areas and Micropolitan Statistical Areas.

45a
o Metropolitan Statistical Areas are defined by the OMB as having “at least
one urbanized area of 50,000 or more
population, plus adjacent territory that
has a high degree of social and economic integration with the core as
measured by commuting ties.” Office of
Mgmt. & Budget, Bulletin No. 15-01
(July 15, 2015) [hereinafter OMB Bulletin No. 15-01]. They are “delineated in
terms of whole counties (or equivalent
entities).” Id. A surrounding county
may be part of a Metropolitan Statistical Area only if at least 25 percent of its
workers commute into the central
county, or if at least 25 percent of the
central county’s workers commute to
the surrounding county. 75 Fed. Reg.
37,246, 37,250 (June 28, 2010). The
OMB cautions that Metropolitan Statistical Area delineations “should not
serve as a general-purpose framework
for nonstatistical activities.” OMB Bulletin No. 15-01.
o Micropolitan Statistical Areas are identical to Metropolitan Statistical Areas
except that their urbanized areas are
smaller. In a Micropolitan Statistical
Area, the urbanized area (also known
as the core), contains at least 10,000 but
fewer than 50,000 people. Id.
o A Metropolitan Division is a subdivision of a large Metropolitan Statistical

46a
Area. Specifically, a Metropolitan Division is “a county or group of counties
within a Metropolitan Statistical Area
that has a population core of at least 2.5
million.” Id.
•

Combined Statistical Areas are composed of
adjacent Core-Based Statistical Areas that
share what the OMB calls “substantial employment interchange.” U.S. Census Bureau,
Geographic
Terms
and
Concepts,
https://www.census.gov/geo/reference/
gtc/
gtc_cbsa.html. Two Core-Based Statistical Areas have the requisite interchange if their
“employment interchange measure” is at least
15. The employment interchange measure is
easiest understood with an example: if 8 percent of County A commutes to County B, and
7 percent of County B commutes to County A,
the employment interchange is 15 (the sum of
the decimals multiplied by 100). 75 Fed. Reg.
at 37,248. The OMB characterizes Combined
Statistical Areas as “representing larger regions that reflect broader social and economic
interactions, such as wholesaling, commodity
distribution, and weekend recreation activities, and are likely to be of considerable
interest to regional authorities and the private sector.” OMB Bulletin No. 15-01.

•

A Single Political Jurisdiction is a city,
county, or the political equivalent. 81 Fed.
Reg. at 88,440. While the other terms originated with the OMB, this one appears to be
the NCUA’s own.

47a
The Rule, promulgated in 2016, defines “local
community, neighborhood, or rural district” in four
ways challenged here. First, the Rule automatically
characterizes as part of a local community any portion
of any Core-Based Statistical Area (or of a Metropolitan Division instead when there is one) as long as the
portion contains no more than 2.5 million people. 81
Fed. Reg. at 88,440. The NCUA interpreted its previous iteration of the regulation as categorizing a
portion of a Core-Based Statistical Area as belonging
to a local community only if the core was itself included, but the 2016 Rule does not include that
requirement. Id. at 88,413–14. Now, a credit union
can serve areas within a Core-Based Statistical Area
that do not include the core.
Second, the Rule automatically characterizes any
individual portion of a Combined Statistical Area as
belonging to a local community as long as the portion
contains no more than 2.5 million people. Id. at
88,440. An example of a Combined Statistical Area is
the Washington-Baltimore-Arlington, DC-MD-VAWV-PA Combined Statistical Area, which includes
eight Core-Based Statistical Areas from the District of
Columbia, Virginia, Maryland, West Virginia, and
Pennsylvania.
Third, the Rule allows a credit union serving a
portion of a Single Political Jurisdiction, Core-Based
Statistical Area, or Combined Statistical Area to add
an adjacent area if the credit union can demonstrate
that the adjacent area is part of the same local community based on various factors that indicate common
interests or interaction. Id.

48a
Fourth, the Rule increases the population limit for
rural districts to one million people. Id. A proposed
service area within the population limit automatically
qualifies as a part of a rural district if either (1) most
of the area’s population resides in Census Bureau-designated rural units or (2) the area’s population density
does not exceed 100 persons per square mile. Id. An
area covering the state of Wyoming and portions of six
surrounding states, for example, is considered a rural
district under the Rule.
The ABA challenges the Rule under the Administrative Procedure Act, arguing that the NCUA
exceeded its statutory authority and that the Rule is
arbitrary and capricious. See 5 U.S.C. § 706(2)(A), (C).
Both parties moved for summary judgment, and the
case was reassigned to the undersigned judge on December 4, 2017.
A.

Statutory History

The Federal Credit Union Act (the Act) has its
roots in the Great Depression. In the years following
the stock market crash of 1929, many Americans lost
access to credit at reasonable interest rates. First
Nat’l Bank & Tr. Co. v. NCUA, 988 F.2d 1272, 1274
(D.C. Cir. 1993). Because they lacked the security required for bank loans, “working Americans turned to
loan sharks who typically charged usurious interest
rates, which was thought to reduce the overall purchasing power of American consumers.” Id. (citing 78
Cong. Rec. 12,223 (1934)). Congress sought to solve
this problem with the Act. See Pub. L. No. 73-467, 48
Stat. 1216 (1934) (codified at 12 U.S.C. § 1751 et seq.).
Signed in 1934, the Act was designed to establish
a stable federal system of cooperative credit,

49a
strengthen the country’s securities market, and
“make more available to people of small means credit
for provident purposes.” Id. pmbl. To ensure that federal credit unions met their members’ borrowing
needs, the Act established the basic features of credit
unions that persist today. The Act required credit unions to be owned and controlled by members and
empowered credit unions to make loans only to members. 1 Id. §§ 103, 107, 109, 111. “Congress expected
that such measures guaranteeing democratic self-government would infuse the credit union with a spirit of
cooperative self-help and ensure that the credit union
would remain responsive to its members’ needs.”
First Nat’l Bank, 988 F.2d at 1274.
The Act also provided for two basic types of credit
unions: common-bond credit unions (those whose
membership shares an occupational or associational
bond) and community credit unions (those whose
membership shares geographic and communal ties).
Pub. L. No. 73-467, § 109. The Act accordingly restricted the eligible fields of credit-union membership
to “groups having a common bond of occupation, or association” or “groups within a well-defined
neighborhood, community, or rural district.” Id. This
requirement was “the cement that united credit union
members in a cooperative venture.” First Nat’l Bank
& Tr. Co. v. NCUA, 90 F.3d 525, 526, 529–30 (D.C.
Cir. 1996), aff’d, 522 U.S. 479 (1998). “The Congress
intended that each [federal credit union] be a cohesive
association in which the members are known by the
officers and by each other in order to ‘ensure both that
A later amendment allowed credit unions to make loans to other
credit unions as well. See 12 U.S.C. § 1757(5).

1

50a
those making lending decisions would know more
about applicants and that borrowers would be more
reluctant to default.’” Id. (quoting First Nat’l Bank,
988 F.2d at 1276).
The NCUA and its predecessors initially interpreted the Act to require that every member of a
common-bond credit union—the type not at issue
here—share the same occupational bond. First Nat’l
Bank, 522 U.S. at 484. But in 1982, the NCUA “reversed its longstanding policy in order to permit
[common-bond] credit unions to be composed of multiple unrelated employer groups.” Id. (emphasis added).
In 1998, however, the United States Supreme Court
rejected the NCUA’s new interpretation as “simply
not what the statute provides” and “contrary to the
unambiguously expressed intent of Congress.” First
Nat’l Bank, 522 U.S. at 501, 503.
Within months of the Supreme Court’s decision,
Congress amended the Act via the Credit Union Membership Access Act (the 1998 Act). See Pub. L. No. 105219, 112 Stat. 913 (1998). In the preface to the 1998
Act, Congress reiterated its longstanding support for
credit unions, finding that they “have the specified
mission of meeting the credit and savings needs of
consumers, especially persons of modest means.” Id.
§ 2. Congress also found that “a meaningful affinity
and bond among members, manifested by a commonality of routine interaction, shared and related work
experiences, interests, or activities, or the maintenance of an otherwise well-understood sense of
cohesion or identity is essential to the fulfillment of
the public mission of credit unions.” Id. Most relevant
here, the 1998 Act modified the categories of service
areas for community credit unions: whereas service

51a
areas were previously limited to a “well-defined neighborhood, community, or rural district,” Pub. L. No. 73467, § 109, the 1998 Act changed that phrase to “welldefined local community, neighborhood, or rural district,” Pub. L. No. 105-219, § 101 (codified at 12 U.S.C.
§ 1759(b)(3)) (emphasis added). The 1998 Act required
the NCUA to prescribe a definition of the phrase by
regulation. Id. § 103 (codified at 12 U.S.C.
§ 1759(g)(1)).
B.

The NCUA’s Interpretations

Under this express delegation of definitional authority, the NCUA has promulgated multiple rules
addressing the permissible service areas for community credit unions.
1. The 1998 Rule
Four months after the passage of the 1998 Act, the
NCUA promulgated a rule defining the geographic
scope of community credit unions. 63 Fed. Reg. 71,998
(Dec. 30, 1998). The NCUA stated that its “policy is to
limit the community to a single, geographically welldefined area where individuals have common interests or interact.” Id. at 72,037. The rule thus
“recognize[d] four types of affinity on which a community charter can be based—persons who live in,
worship in, attend school in, or work in the community.” Id. Notably, the NCUA responded to Congress’s
decision to replace the term community with local
community:
[T]he [NCUA] Board concluded that the
addition of the word “local” to the previous statutory language was intended as

52a
a limiting factor and that additional clarification was required relative to what
would qualify as a community charter.
The Board further concluded that a more
circumspect and restricted approach to
chartering community credit unions appeared to be the congressional intent.
Id. at 72,012.
The rule established three requirements for community credit union applications: (1) the proposed
area must have clearly defined geographic boundaries; (2) the applicant must demonstrate that the
proposed area falls within a well-defined local community, neighborhood, or rural district; and (3) the
residents of the area must have common interests or
interact. Id. at 72,037. The rule identified factors that
the agency would consider in assessing the third requirement (which informed the second, id. at 72,012),
including (i) the presence or absence of a single major
trade area, shared governmental or civil facilities, or
area newspaper; and (ii) the population and geographic size of the proposed area. Id. at 72,037. The
NCUA noted that states and congressional districts
did not meet the requirement that a service area be a
local community, neighborhood, or rural district. Id.
The rule also illustrated its requirements with examples of acceptable, unacceptable, and insufficiently
defined fields of membership for community credit unions. Acceptable fields included people who live or
work in the same county, the same school district, or
the same university. Id. at 72,038. Unacceptable fields
included “persons who live or work in the Greater Boston Metropolitan Area” or “the State of California.”

53a
Id. at 72,039. And insufficiently defined fields included “persons who live or work within and
businesses located within a ten- mile radius of Washington, DC” or “persons who live or work in the
industrial section of New York.” Id.
2. The 2003 Rule
In 2003, the NCUA promulgated a rule that
broadened the local community requirement. 68 Fed.
Reg. 18,334 (Apr. 15, 2003). First, the rule established
that any Single Political Jurisdiction (or any contiguous portion of one) automatically qualified as a local
community. Id. at 18,357. The NCUA clarified that
this was an “irrebuttable presumption, regardless of
population size,” and that “no documentation demonstrating that the political jurisdiction is a community
would be required.” Id. at 18,337. Second, the rule provided that the statutory requirements might be met if
“the area to be served is in multiple contiguous political jurisdictions” as long as the area’s population does
not exceed 500,000. Id. at 18,357. And third, the rule
provided that the requirements might be met by an
area with a population of up to one million people if
the area is a Metropolitan Statistical Area or an
equivalent area. Id. For any area not within a Single
Political Jurisdiction, the rule required credit union
applicants to submit a narrative letter describing how
the proposed area meets the standards for community
interaction or common interests. Id. at 18,337, 18,357.
3. The 2010 Rule
The NCUA further expanded the permissible service areas in a 2010 rule. While the NCUA

54a
acknowledged that “the statutory language ‘local community’ does imply some limit” and reiterated that
states and congressional districts do not qualify as local communities or rural districts, the agency
abandoned its narrative-based approach. 75 Fed. Reg.
36,257, 36,258, 36,264 (June 25, 2010). The NCUA
stated that the local community requirement is met if
the proposed service area is (1) a Single Political Jurisdiction or any contiguous portion thereof; or (2) a
Core-Based Statistical Area or Metropolitan Division
with a population not exceeding 2.5 million people, or
portion thereof. Id. at 36,264; see also id. at 36,257. In
the rule’s preamble, the NCUA noted that “any portion of a [Core-Based Statistical Area] chosen as the
geographic area of the community must . . . contain
the core.” Id. at 36,260.
The 2010 rule also defined rural district as an
area with (1) well-defined, contiguous geographic
boundaries; (2) either a population that mostly lives
in areas designated as rural or a population density of
no more than 100 persons per square mile; and (3) a
population of no more than 200,000. Id. at 36,264.
4. The 2013 Rule
In 2013, the NCUA increased the population limit
for rural districts to the greater of 250,000 people or 3
percent of the state in which most of the district is located. 78 Fed. Reg. 13,460, 13,463 (Feb. 28, 2013).
C.

The 2016 Rule

In a final rule promulgated in December 2016, the
NCUA adopted the four changes that the ABA now
challenges. First, the Rule modifies the requirements

55a
for Core-Based Statistical Areas. The Rule now automatically qualifies as part of a local community any
contiguous portion of a Core-Based Statistical Area
(or of a Metropolitan Division when there is one) of
more than 2.5 million people as long as the portion’s
population does not exceed 2.5 million people. 81 Fed.
Reg. at 88,440. In the Rule’s preamble, the NCUA observed that it was eliminating the requirement that a
portion of a Core-Based Statistical Area belongs to a
local community only if it includes the core. Id. at
88,413–14. The NCUA reasoned that credit unions
were fulfilling the underlying purpose of the core requirement—to ensure adequate service to low-income
communities—without regard to location. Id. Bankaffiliated commenters expressed concern that eliminating the core requirement would allow credit unions
to redline out low-income communities; the NCUA responded by asserting that its supervisory process
would prevent discrimination. Id.
Second, the Rule adds Combined Statistical Areas
to the list of categories that automatically qualify as
belonging to a local community, subject to a 2.5 million population limit. Id. at 88,440. In response to
commenters who argued that a Combined Statistical
Area is too expansive to be considered a local community, the NCUA emphasized the population limit and
observed that the average Combined Statistical Area
was smaller than the average Core-Based Statistical
Area that the NCUA had approved since 2010. Id. at
88,414–15.
Third, the Rule allows credit unions to apply to
add areas adjacent to a portion of a Single Political
Jurisdiction, Core-Based Statistical Area, or Combined Statistical Area that they already serve, subject

56a
to the same population limit. Id. at 88,440. To expand
a service area, applicants must establish that the adjacent area is part of the same local community as the
already-served statistical area with “objective documentation” showing common interests or interaction
among residents on both sides of the statistical area’s
perimeter. Id. at 88,415.
Fourth, the Rule increases the population limit for
rural districts to one million people and eliminates the
alternative population limit of 3 percent of the state
in which most of the district is located. Id. at 88,440.
The NCUA defended the increased population limit on
the ground that it would allow greater and more efficient service to rural areas. Id. at 88,417. As before,
an area qualifies as a rural district only if it meets the
population limit and either (1) more than 50 percent
of the area’s population resides in rural areas (as defined by government agencies) or (2) the area’s
population density does not exceed 100 persons per
square mile. Id. at 88,440. The Rule also introduces a
requirement that a rural district cannot exceed the
boundaries of the states bordering the state in which
the credit union is headquartered. Id.
II. LEGAL STANDARDS
A court grants summary judgment if the moving
party “shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a); see also
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247–48
(1986). A “material” fact is one with potential to
change the substantive outcome of the litigation. See
Liberty Lobby, 477 U.S. at 248; Holcomb v. Powell, 433
F.3d 889, 895 (D.C. Cir. 2006). A dispute is “genuine”

57a
if a reasonable jury could determine that the evidence
warrants a verdict for the nonmoving party. See Liberty Lobby, 477 U.S. at 248; Holcomb, 433 F.3d at 895.
Here the plaintiff seeks review of an agency’s final
rule, invoking the Administrative Procedure Act’s requirement that a court “hold unlawful and set aside”
any aspect of the rule that is “arbitrary [and] capricious” or “in excess of statutory . . . authority.”
5 U.S.C. § 706(2)(A), (C). In an Administrative Procedure Act case, summary judgment “serves as the
mechanism for deciding, as a matter of law, whether
the agency action is supported by the administrative
record and otherwise consistent with the APA standard of review.” Sierra Club v. Mainella, 459 F. Supp.
2d 76, 90 (D.D.C. 2006). In other words, “the entire
case . . . is a question of law” and the district court
“sits as an appellate tribunal.” Am. Biosci., Inc. v.
Thompson, 269 F.3d 1077, 1083 (D.C. Cir. 2001) (quotation marks and footnote omitted).
Review of an agency’s interpretation of a statute
it administers is governed by the two- step Chevron
doctrine. At Step One, a court must determine
“whether Congress has directly spoken to the precise
question at issue” or instead has delegated to an
agency the legislative authority to “elucidate a specific
provision of the statute by regulation.” Chevron,
U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S.
837, 842, 843–44 (1984). If the latter, a court must
reach Step Two, which asks whether the agency action
“is based on a permissible construction of the statute”
or instead is “manifestly contrary to the statute.” Id.
at 843, 844.

58a
A statute’s grant of definitional authority to an
agency decides Step One in the agency’s favor because
the definitional provision “confirms that the Congress
has not directly spoken” to the interpretive question.
Lindeen v. SEC, 825 F.3d 646, 653 (D.C. Cir. 2016)
(internal quotation marks and emphasis omitted); see
also Women Involved in Farm Econ. v. U.S. Dep’t of
Agric., 876 F.2d 994, 1000–01 (D.C. Cir. 1989) (concluding that when a statute gives an agency
definitional authority, “there is no need to rely on the
presumptive delegation to agencies of authority to define ambiguous or imprecise terms we apply under the
Chevron doctrine, for the delegation of interpretative
authority is express” (citation omitted)). The grant of
definitional authority also “necessarily suggests that
Congress did not intend the [terms] to be applied in
[their] plain meaning sense,” Women Involved, 876
F.2d at 1000 (emphasis omitted), and “manifests that
the Congress intended the [agency] to enjoy broad discretion to decide” what the statute means by the terms
to be defined, Lindeen, 825 F.3d at 653.
But that broad discretion is not unlimited. Even a
statute that gives an agency definitional authority
does not leave the agency “free to write its own law.”
Am. Fin. Servs. Ass’n v. FTC, 767 F.2d 957, 968 (D.C.
Cir. 1985) (quotation marks omitted). Instead, the
statute carries the implicit premise that the agency’s
definitions must be reasonable. See Lindeen, 825 F.3d
at 656 (sustaining an agency’s exercise of express definitional authority because the agency “acted
reasonably” in making its definitional decision); U.S.
Telecom Ass’n v. FCC, 825 F.3d 674, 717 (D.C. Cir.
2016) (sustaining an agency’s exercise of express definitional authority because the agency’s interpretation

59a
of the statute was “reasoned and reasonable”); Women
Involved, 876 F.2d at 1003 (suggesting that when an
agency acts under express definitional authority, the
ultimate question is whether the agency’s definition is
“a reasonable interpretation of the statute”). In other
words, the agency’s exercise of definitional authority
must survive Chevron Step Two—it cannot be “manifestly contrary to the statute.” Lindeen, 825 F.3d at
656 (quotation marks omitted); see also NCUA Suppl.
Mem. at 1, Dkt. 31 (acknowledging the same).
Arbitrary and capricious review is “fundamentally
deferential—especially with respect to matters relating to an agency’s areas of technical expertise.” Fox v.
Clinton, 684 F.3d 67, 75 (D.C. Cir. 2012) (quotation
marks and alteration omitted). A court “is not to substitute its judgment for that of the agency.” Motor
Vehicle Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983). Even so, the
standard is not entirely toothless: the agency “must
examine the relevant data and articulate a satisfactory explanation for its action.” Id. When reviewing
the agency’s explanation, a court must consider
“whether the decision was based on a consideration of
the relevant factors and whether there has been a
clear error of judgment.” Id. (quotation marks omitted). A court defers to the agency “as long as the action
is supported by ‘reasoned decisionmaking.’” Bean v.
Perdue, No. 17-cv-0140, 2017 WL 4005603, at *5
(D.D.C. Sept. 11, 2017) (quoting Fox, 684 F.3d at 75).
Finally, the party challenging an agency’s action as
arbitrary and capricious bears the burden of proof.
Pierce v. SEC, 786 F.3d 1027, 1035 (D.C. Cir. 2015).

60a
III. ANALYSIS
The ABA has Article III and prudential standing
to bring this suit because its members compete with
the credit unions that benefit from the NCUA’s broadened definitions. See First Nat’l Bank, 522 U.S. at 488.
The ABA challenges the Rule under the Administrative Procedure Act, which requires a court to “hold
unlawful and set aside” agency action “found to be arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law,” 5 U.S.C.
§ 706(2)(A), and agency action “in excess of statutory
jurisdiction, authority, or limitations, or short of statutory right,” id. § 706(2)(C). The Court concludes that
the Rule’s approaches to Combined Statistical Areas
and rural districts are manifestly contrary to the Act
and thus violate Section 706(2)(C). On the other hand,
the Rule’s approaches to Core-Based Statistical Areas
and adjacent areas are neither in excess of the
agency’s statutory authority nor arbitrary and capricious, though the approach to Core-Based Statistical
Areas pushes against the outer limits of reasonableness.
The interpretive question presented is whether
the terms local community and rural district can reasonably be thought to encompass the scope that the
NCUA has given them. Discerning the boundaries of
vague terms—permissible boundaries, in this case—
is notoriously challenging, but that is the task at
hand. Several principles guide the inquiry.
First, it is the meaning of a statutory term at the
time it became law that controls. See, e.g., Sandifer v.
U.S. Steel Corp., 134 S. Ct. 870, 876 (2014) (stating

61a
that a statute is interpreted according to its contemporaneous meaning); Carcieri v. Salazar, 555 U.S.
379, 388 (2009) (examining the ordinary meaning of
the relevant term “as understood when the [statute]
was enacted”). To discern contemporaneous meaning,
courts look first to contemporaneous dictionaries. See
PHH Corp. v. CFPB, 881 F.3d 75, 130 (D.C. Cir. 2018)
(Griffith, J., concurring in the judgment) (collecting
cases for the observation that the Supreme Court
“generally begins [an interpretive task] with dictionaries”); Kellogg Brown & Root Servs. v. U.S., ex rel.
Carter, 135 S. Ct. 1970, 1976 (2015) (citing dictionaries from the period surrounding the date of
enactment).
But exclusive reliance on dictionaries would be
misguided. For one, a dictionary “cannot delineate the
periphery” of vague terms (those that blur around the
edges) like local community and rural district. Antonin Scalia & Bryan A. Garner, Reading Law 418
(2012); see also William N. Eskridge Jr., Interpreting
Law 58 (2016) (same). More significantly, contemporaneous dictionaries do not provide American
definitions of local community or rural district. The
terms’ individual words are defined, of course, and
definitions of component words often shed light on a
term’s meaning, but a term does not necessarily mean
the sum of its parts. See FCC v. AT&T Inc., 562 U.S.
397, 406 (2011) (“[T]wo words together may assume a
more particular meaning than those words in isolation.”); United States v. Castleman, 134 S. Ct. 1405,
1411 (2014) (observing that the term domestic violence
encompasses “acts that one might not characterize as
‘violent’ in a nondomestic context”). For these reasons,
it is important to consult the interpretive canons and

62a
common usage of the terms local community and rural
district at the time of their enactment.
A.

The NCUA’s Definition of Local
Community

The ABA challenges three aspects of the Rule that
expand the NCUA’s definition of local community: the
addition of Combined Statistical Areas to the list of
automatic qualifiers, the absence of a core requirement for Core-Based Statistical Areas, and the
potential inclusion in a service map of areas adjacent
to statistical areas that are categorically defined as local communities.
1. Meaning of Local Community
The question whether the NCUA’s definitions of
local community are manifestly contrary to the statute requires comparisons to the term’s 1998 meaning.
The term community was included in the 1934 Act,
but because that term was replaced in 1998 by the distinct term local community, the latter year is most
relevant.
a. Definitions
In 1998, the word community, on its own, could
refer to a group as small as a few people (e.g., a church
community group) or one including most of the world
(the international community). That said, several dictionaries define community as a body of people who
live “in the same locality” or in “one place.” Chambers
Dictionary (1993); Oxford Dictionary of Current English (3d ed. 2001). And one of Black’s definitions for
community is a “neighborhood, vicinity, or locality.”
Black’s Law Dictionary (7th ed. 1999). Geographic

63a
proximity aside, the defining characteristic of a community was a common bond. See, e.g., Chambers
Dictionary (1993) (defining community as “a group of
people who have common interests, characteristics or
culture”).
Many 1998-era dictionaries make clear that local
meant geographically limited. See, e.g., Merriam Webster’s Collegiate Dictionary (10th ed. 1997) (defining
local as “of, relating to, or characteristic of a particular place: not general or widespread”). Webster’s
Third provides more precise definitions: “primarily
serving the needs of a particular limited district, often
a community or minor political subdivision” and “limited in operation to only part of the territory subject to
the legislative power (as a town, district, county).”
Webster’s Third New International Dictionary (3d ed.
1993); see also id. (defining local as “a newspaper
story or item of interest mainly to readers who live in
the town or city where the paper is published”). These
definitions—which cite towns, counties, and other
“minor” political subdivisions as examples of local areas—suggest that a local community generally
extended no farther than countywide.
While 1998-era dictionaries do not define the term
local community, several state statutory provisions in
effect around that time did. One state defined the
term broadly, but numerous others defined it narrowly. Kentucky defined local community crisis
response team as “a team formed to provide crisis response services in a county, district, or region.” Ky.
Rev. Stat. Ann. § 36.250(5) (2017) (relevant language
effective 1998). Against that broad definition, however, Rhode Island defined local communities as “any
cities and towns of Rhode Island.” R.I. Gen. Laws § 23-

64a
7.1-3 (2017) (relevant language effective 1968). Mississippi defined local community in an earlyintervention statute as “a county either jointly, severally, or a portion thereof, participating in the
provision of early intervention services.” Miss. Code.
§ 41-87-5(f) (2017) (relevant language effective 1990).
In a statute concerning the conversion of single-unit
home communities to multi-unit condominiums or cooperatives,
Delaware
defined
affected
local
community as “the municipality or county in which
the largest portion of the real property which has been
proposed as a conversion project is situated.” Del.
Code Ann. tit. 25, § 7102(1) (2018) (relevant language
enacted 1983). Alaska defined local community entity
as “a city or borough or other political subdivision of
the state, a nonprofit organization, or a combination
of these.” Alaska Stat. § 18.66.990(7) (2017) (relevant
language effective 1996). Iowa defined local community as “a county conservation board, a city, or a
nongovernmental organization operating on a nonprofit basis.” Iowa Code Ann. § 461.36 (West) (2018)
(relevant language enacted 2010). Oklahoma defined
the term to mean a “town or city and [] county . . . ;
provided, a city or town and a county may jointly constitute the ‘local community.’” Okla. Stat. Ann. tit. 68,
§ 4203 (West) (2018) (relevant language enacted
2006). In a statute addressing violent video games,
Michigan defined local community as “the county in
which the video game was disseminated.” Mich.
Comp. Laws Ann. § 722.686 (West) (2018) (relevant
language effective 2005). Also relevant is a California
definitional provision: “‘Community,’ ‘locality,’ ‘local
government,’ or ‘jurisdiction’ means a city, city and
county, or county.” Cal. Gov’t Code § 65582(a) (West
2018) (relevant language enacted 1980). On the whole,

65a
these definitions suggest that local community was
understood in 1998 as generally encompassing an
area no larger than a county.
b. Textual Context and Statutory
History
A circumscribed understanding of local community also follows from the term’s surrounding text and
statutory history. First, the term is embedded in a
statutory provision that contains other geographically
limited terms: “local community, neighborhood, or rural district.” 12 U.S.C. § 1759(b)(3) (emphases added).
These terms inform the interpretation of local community because, as the noscitur a sociis canon dictates, “a
word is given more precise content by the neighboring
words with which it is associated.” United States v.
Williams, 553 U.S. 285, 294 (2008). By applying the
noscitur canon, courts “avoid ascribing to one word a
meaning so broad that it is inconsistent with its accompanying words, thus giving unintended breadth to
the Acts of Congress.” Yates v. United States, 135 S.
Ct. 1074, 1085 (2015).
Both early- and late-twentieth century dictionaries define neighborhood as a relatively small area: the
term referred to a “section or district” lived in by people “forming a loosely cohesive community within a
larger unit (as a city, town) . . . .” Webster’s Third New
International Dictionary (3d ed. 1993); see also 6 The
Century Dictionary and Cyclopedia (1911) (defining
neighborhood as “[t]hose living in the vicinity or adjoining locality; neighbors collectively”). Similarly,
rural district generally referred to areas no larger
than a county. See infra Section III.B. The geographic
scope of the “company [the term local community]

66a
keeps,” Yates, 135 U.S. at 1085, suggests that the term
describes areas similar in size to a neighborhood or
county.
The Act’s statutory history also “sheds . . . light on
the text.” United States v. Quality Stores, Inc., 134 S.
Ct. 1395, 1401 (2014); see also Kellogg Brown, 135 S.
Ct. at 1977–78 (suggesting that in some cases the statutory history is “the strongest support” for a court’s
interpretation). The 1998 Congress did not spin the
phrase local community from whole cloth— the word
community had been in the Act since its enactment in
1934. See Pub. L. No. 73-467, § 109 (limiting membership to “groups within a well-defined neighborhood,
community, or rural district.”). As the NCUA has long
conceded, the change from community to local community shrunk the phrase’s geographic scope. See 63 Fed.
Reg. at 72,012; Hr’g Tr. at 44, Dkt. 33. That means the
preexisting understanding of community is relevant
as an outer bound for the meaning of local community.
In 1934, community meant “a body of people having common organization or interests, or living in the
same place under the same laws and regulations.”
Webster’s New International Dictionary (2d ed. 1934);
see also 2 The Century Dictionary and Cyclopedia
(1911) (defining community as a “number of people associated together by the fact of residence in the same
locality, . . . ; a village, township, or municipality”); see
also Lukens Steel Co. v. Perkins, 107 F.2d 627, 631
(D.C. Cir. 1939), rev’d on other grounds, 310 U.S. 113
(1940) (observing that community connotes not “large
geographical areas, with widely diverse interests” but
rather “congeries of common interests arising from associations—social, business, religious, governmental,
scholastic, recreational—involving considerations of

67a
public health, fire protection, water, sewage, transportation, and other services”). This informs the 1998
meaning of local community and provides further support for a narrow reading of the term.
2. Combined Statistical Areas
The Rule automatically qualifies any contiguous
portion of a Combined Statistical Area as part of a single local community, as long as the portion’s
population does not exceed 2.5 million. 2 A Combined
Statistical Area consists of adjacent Core-Based Statistical Areas that, according to the OMB, have
substantial employment interchange. 75 Fed. Reg. at
37,248. The Combined Statistical Area that includes
Washington D.C., for example, is composed of the entirety of the colored area in this map:

The ABA claims that the Rule also allows noncontiguous areas
to qualify, but in its briefing the NCUA assures that the Rule
requires contiguous areas. See ABA Br. at 25, Dkt. 14; NCUA
Br. at 27–28, Dkt. 19-1. An agency’s interpretation of its regulation advanced in a legal brief is entitled to deference unless it is
“plainly erroneous or inconsistent with the regulation” or “does
not reflect the agency’s fair and considered judgment on the matter.” Auer v. Robbins, 519 U.S. 452, 461–62 (1997). The Rule
qualifies as part of a local community “a portion” of the relevant
areas, 81 Fed. Reg. at 88,440, and that can reasonably be interpreted as requiring contiguity, so the NCUA’s reading merits
deference.
2

68a

The varying shades of green represent each of the
eight Core-Based Statistical Areas that form the Combined Statistical Area. The OMB claims that
Combined Statistical Areas “reflect broader social and
economic interactions” like “wholesaling, commodity
distribution, and weekend recreation activities.”
OMB Bulletin No. 15-01. The record, however, does
not provide support for that conclusion. While Chambersburg-Waynesboro, for example, must have an
employment interchange of at least 15 with Hagerstown-Martinsburg
(its
adjacent
Core-Based
Statistical Area), Chambersburg-Waynesboro does
not necessarily have any interchange at all with any
of the other Core-Based Statistical Areas. In other
words, a Combined Statistical Area might be composed of a series of daisy-chained Core-Based
Statistical Areas that are linked to their neighbors but

69a
have nothing to do with those at the other end of the
chain.
The NCUA argues that the population cap of 2.5
million people and the contiguity requirement together prevent distant and unconnected areas from
being considered a local community. Those limits,
however, do not solve the problem. Here’s an extreme
example:

According to the Rule, everyone living within the red
rectangle, which is contiguous and contains fewer
than 2.5 million people, is part of the same local community. See Hr’g Tr. at 42 (NCUA acknowledging that
the Rule defines thin strips like the above as part of a
single local community). That is true even though residents of Doylesburg, Pennsylvania (at the northern
edge of the red rectangle) and residents of Partlow,
Virginia (at the southern edge of the red rectangle)

70a
live about 200 miles from each other—around a 3.5hour drive. What is more, unlike some residents from
even the perimeter of the D.C. Core-Based Statistical
Area, residents of Doylesburg and Partlow do not necessarily share any commuting relationship to D.C.
They might not share any commonality whatsoever
beyond that they live in the Mid-Atlantic region of the
United States within a certain radius of D.C.
The Doylesburg-Partlow example is extreme, but
it is not hypothetical: the Rule defines the red rectangle as belonging to a single local community. If a credit
union seeks to serve such an area, the NCUA has no
discretion to reject the credit union’s application on
the ground that the area is not a local community. 81
Fed. Reg. at 88,440; see also Hr’g Tr. at 42. Because
any portion of a Combined Statistical Area automatically qualifies, the NCUA can do nothing to prevent a
gerrymandering credit union from serving up to 2.5
million people from all ends of a Combined Statistical
Area.
A definition that calls Doylesburg, Pennsylvania
and Partlow, Virginia residents part of the same local
community is not anywhere near the term’s standard
meaning. As noted, at the time of enactment, numerous states defined the term as constituting a
geographic scope no larger than a county. And definitions of the individual words local and community also
suggest that a local community was understood as a
group sharing a common bond and living in a geographically small area such as a county or
municipality. Combined Statistical Areas do not necessarily have either of those characteristics: they
sometimes stretch across vast regions that include
multiple separate urban centers with suburban and

71a
rural communities, and residents of peripheral towns
may have no common bond at all beyond regional
proximity. Any number of less extreme examples
make the same point: the Rule—which requires the
NCUA to accept a service area based on a Combined
Statistical Area as part of a local community no matter how geographically dispersed and unconnected its
2.5 million or fewer members may be—is unreasonable.
The NCUA’s responses are unpersuasive. First,
the NCUA asserts that the term local community does
not “connote any fixed restrictions” at all because the
statute does not explicitly address the question how
broad is too broad. NCUA Br. at 26, Dkt. 19-1. But
while local community is vague, it is not devoid of
meaning. Acceptance of the NCUA’s argument would
allow an agency to rewrite a statute whenever it is
given the authority to define a vague term. Second, to
suggest that it retains some discretion over areas like
the red rectangle, the NCUA invokes a requirement
that a credit union applicant must establish that it
has the ability to serve its proposed service area. Hr’g
Tr. at 36; see also 81 Fed. Reg. at 88,414. But that requirement is an additional one imposed on top of the
local community requirement; it does not factor into
the NCUA’s definition of local community. See 75 Fed.
Reg. at 36,261 (“[A]fter establishing the existence of a
[well-defined local community],” a credit union must
“demonstrate it is able to serve the [well-defined local
community].”). Because the Rule automatically qualifies any area of 2.5 million or fewer people from any
Combined Statistical Area as part of a local community—despite its potential geographic breadth and

72a
lack of commonality—this definition is manifestly contrary to the statute.
3. Core-Based Statistical Areas
Next, the Rule deems any individual portion of
any Core-Based Statistical Area (or Metropolitan Division instead when there is one) a local community
as long as the portion’s population does not exceed 2.5
million. 81 Fed. Reg. at 88,440. A Core-Based Statistical Area consists of an urban core, its county, and
any surrounding counties that are, according to OMB,
highly socially and economically integrated with the
core. 75 Fed. Reg. at 37,249; see also U.S. Census Bureau, Geographic Terms and Concepts. The OMB
defines social and economic integration with commuting ties: a surrounding county may be part of a CoreBased Statistical Area only if at least 25 percent of its
workers commute into the central county or vice
versa. 75 Fed. Reg. at 37,250.
The Rule eliminates two requirements that prevented certain areas within Core-Based Statistical
Areas from being considered part of a single local community. First, while the NCUA interpreted the 2010
rule to define a portion of a Core-Based Statistical
Area as part of a local community only if it included
the core, the new Rule contains no such requirement,
and the NCUA notes in the Rule’s preamble that the
core requirement is eliminated. 81 Fed. Reg. at
88,414, 88,440. Second, the Rule also eliminates the
requirement from the 2010 rule that a Core-Based
Statistical Area can form the basis for a local community only if the Core-Based Statistical Area as a whole
contains no more than 2.5 million people. Id. Now, the
portion of the Core-Based Statistical Area can contain

73a
no more than 2.5 million people, but the Core-Based
Statistical Area itself can be any size. According to the
NCUA, the 2010 rule inadvertently misstated the appropriate population limit and thus the populationlimit increase in the Rule is merely a “technical remedy” to correct that mistake. Id. at 88,414; Hr’g Tr. at
39.
The Court’s review of the Rule’s definitional decisions regarding Core-Based Statistical Areas is
limited to the absence of a core requirement. The complaint referred to the population- limit increase,
Compl. ¶ 53, but to the extent that the ABA challenges
the Rule on that basis, the claim is waived because the
issue was not raised during the notice-and-comment
rulemaking process. See Koretoff v. Vilsack, 707 F.3d
394, 397 (D.C. Cir. 2013) (“A party will normally forfeit an opportunity to challenge an agency rulemaking
on a ground that was not first presented to the agency
for its initial consideration.” (quotation marks omitted)); 81 Fed. Reg. at 88,414 (noting that no
commenter opposed the population-limit increase). It
is worth noting, however, that because of the population-limit increase, the Rule now automatically
qualifies portions of ten of the largest Core-Based Statistical Areas (those with more than 2.5 million people
and with no Metropolitan Division) as belonging to a
single local community. And in conjunction with the
elimination of the core requirement, the populationlimit increase qualifies even portions drawn exclusively from the perimeter of those large Core-Based
Statistical Areas.
On the absence of a core requirement, the ABA argues that the core is what united the Core-Based

74a
Statistical Area to begin with, so a Core-Based Statistical Area without a core cannot belong to a local
community. See ABA Br. at 33–34, Dkt. 14-1. This argument is unconvincing. The Act contains nothing to
suggest that a service area encompassing only part of
a local community is off limits. Removing the core,
moreover, actually decreases the geographic size of a
service area based on a Core-Based Statistical Area—
after all, the area of a circle becomes smaller when a
donut hole is carved out. And the absence of the core
does not alter the other residents’ common bond. If
residents of Arlington, Virginia and Bethesda, Maryland are part of the same local community, that is so
because of commonalities based on their shared vicinity to Washington, D.C. These commonalities are
unaffected by the absence of the D.C. core from a
credit union’s service map. In other words, Arlington
and Bethesda residents share the common bond of residing in suburban D.C. regardless of whether D.C.
residents are part of their credit union’s service area.
The absence of the core requirement is nonetheless troubling, however, because it allows for
geographically larger local communities. If the core requirement were in place, a credit union seeking to
serve the Chicago Core-Based Statistical Area, for example, would not be able to reach past the core itself
because the core’s population is above the 2.5 millionperson limit. But without the core requirement and
with the removal of the population limitation for CoreBased Statistical Areas or their Metropolitan Divisions, a credit union can now reach the outer
boundaries of the largest Core-Based Statistical Areas
or their Metropolitan Divisions, as long as the credit

75a
union serves no more than 2.5 million people. For example, the Rule describes residents of Reliance,
Virginia (at the western edge of the red area) and residents of Lusby, Maryland (at the southeastern edge
of the red area) as part of a single local community
even though they live about 140 miles from each
other—a drive of more than two hours:

Similarly, the Rule defines Shelby, Texas and Anahuac, Texas as part of a single local community
although parts of those towns are 160 miles and more
than 2.5 hours from each other; both towns are within
the Houston Core-Based Statistical Area and are connected by a contiguous area with a population below
2.5 million. As with Combined Statistical Areas, any
such portion of a Core-Based Statistical Area or one of
its Metropolitan Divisions automatically qualifies as
part of a single local community under the Rule. As a
result, the NCUA cannot prevent a gerrymandering

76a
credit union from serving the far-flung perimeter of
the largest Core- Based Statistical Areas or their Metropolitan Divisions.
Such a capacious definition of local community is
jarring, to say the least. Although 25 percent of the
workers in each constituent county commute to the
core, the corollary is that up to 75 percent of each
county’s workers do not make that commute and may
have no ties to the core (much less to a remote town
on the opposite side of the core) beyond regional proximity. Also, unlike distant commuters, people who live
in the same city or county—the areas normally associated with the term local community—often share
other communal ties. They are likely to vote in the
same mayoral race, frequent the same parks, suffer
the same potholes, or enroll their children in a common school district or sports league. Finally, even if it
is granted that residents of Reliance and Lusby share
community because a quarter of both of their counties
work in the same core, they do not necessarily share a
local community. It is possible, that is, to leave one’s
local community to commute to work.
Nonetheless, the towns in these examples can reasonably be thought to contain at least some traces of
the social, economic, and geographic commonalities of
a local community. At least 25 percent of the workers
in Reliance’s and Lusby’s counties share the commonality of commuting to the D.C. core. 75 Fed. Reg. at
37,250. As even the ABA acknowledges, that is “pretty
substantial commuting activity.” Hr’g Tr. at 7. The
commuting metric ensures that a service area’s constituent counties are all within a feasible commuting
radius of the core, which means that the service area

77a
shares at least some geographic ties and cannot expand without limit. Also, the OMB uses shared
commuting activity as a proxy for extensive social and
economic commonalities, an inference that the NCUA
has adopted. See 75 Fed. Reg. at 37,249; 81 Fed. Reg.
at 88,450; NCUA Reply Br. at 16–17, Dkt. 25.
While these inferred social, economic, and geographic ties may be less robust than those of a
prototypical local community, they provide at least
some reasonable basis for the NCUA to define local
community as including areas on the perimeter of a
Core-Based Statistical Area. And a barely reasonable
interpretation is enough to satisfy Chevron Step Two.
The Act gives the NCUA “broad discretion” to define
local community, Lindeen, 825 F.3d at 653, and that
discretion includes the ability to make definitional decisions that do not derive from the term’s “most
natural reading,” Pauley v. BethEnergy Mines, Inc.,
501 U.S. 680, 702 (1991). Given the reasonable basis
put forth by the NCUA and the deference owed to the
NCUA’s definition, the absence of a core requirement
is not manifestly contrary to the statute.
Neither is the elimination of the core requirement
arbitrary and capricious. Apart from the requirement
that the NCUA cannot imbue local community with
an unreasonable meaning, the Act provides the NCUA
with little guidance regarding what factors to consider
in defining the term. Acting under its broad delegation of definitional authority, the NCUA adequately
articulated reasons for eliminating the core requirement.
First, the NCUA explained that the Act does not
mandate a core requirement, and that the majority of

78a
commenters favored repeal of the requirement because it “unnecessarily impose[d] an additional
constraint on who credit unions can serve.” 81 Fed.
Reg. at 88,413. Second, the NCUA determined that
the core requirement had led to negative consequences. It had limited the flexibility needed by a
credit union to establish a “marketplace footprint;” it
had deterred credit unions from serving Core-Based
Statistical Areas with populated urban areas; and it
had required credit unions to sacrifice service to noncore portions of Core-Based Statistical Areas. Id. By
removing the core requirement, the NCUA reasonably
sought to alleviate these adverse results.
Finally, the NCUA responded to concerns that repeal “would effectively permit ‘redlining’ through
formation of a community primarily consisting of
wealthier areas within a [Core-Based Statistical
Area], while excluding areas where low-income and
minority populations are concentrated.” Id. The
NCUA explained that it “has in place a supervisory
process to assess [a credit union’s] efforts to offer service to the entire community [the credit union] seeks
to serve.” Id. The NCUA represented that it would
“hold[] credit union management accountable for the
results of an annual evaluation [occurring during the
first three years of a credit union’s charter or expansion and overseen by the Office of Consumer
Protection] that encompasses a community [credit union’s] implementation of its business and marketing
plans.” Id. The NCUA also cited its “mandate to consider member complaints alleging discriminatory
practices affecting low-income and underserved populations, such as redlining, and to respond as necessary
when such practices are shown to exist.” Id. at 88,414.

79a
Based on this supervisory process, especially the evaluations by the Office of Consumer Protection, the
NCUA decided to repeal the core requirement “in view
of credit unions’ success in providing financial services
to low-income and underserved populations without
regard to where they are located within a community,
i.e., beyond its ‘core area.’” Id.
Notwithstanding this explanation, the ABA maintains that the NCUA’s reasons were inadequate
because they “amount to allowing credit unions to exclude less affluent and minority customers they do not
wish to serve—against Congress’s intent.” ABA Reply
Br. at 25, Dkt. 23. As evidence of that intent, the ABA
emphasizes that in the 1998 Act, Congress found that
the credit unions’ mission of meeting consumer savings and credit needs extends “especially [to] persons
of modest means.” Pub. L. No. 105-219, § 2; see also
Pub. L. No. 73-467, pmbl. (stating that a purpose of
the statute was to “make more available to people of
small means credit for provident purposes”).
As laudable and important as this congressional
policy may be, it is thin evidence that the NCUA failed
to consider relevant factors and failed to adequately
explain its decision. Cf. H.J. Inc. v. Nw. Bell Tel. Co.,
492 U.S. 229, 245 (1989) (refusing an invitation to invoke a statute’s preamble and legislative history to
give broad statutory language a specific reading).
Moreover, the NCUA did consider the policy and concluded—based on its experience reviewing business
and marketing plans since 2010—that credit unions
were adequately serving low-income areas and would
continue to do so without the core requirement, perhaps even “more effectively.” See Fed. Reg. at 88,413–
14. The NCUA explained that the Rule did not disturb

80a
the agency’s mandate to consider complaints alleging
discriminatory practices affecting underserved populations and to correct any discriminatory practices
shown to exist. Id. at 88,414. In light of this reasonable explanation, the NCUA’s decision to eliminate the
core requirement was not arbitrary and capricious.
4. Adjacent Areas
Next, the Rule allows a credit union serving a Single Political Jurisdiction, Core-Based Statistical Area,
or Combined Statistical Area to add an adjacent area
if the credit union can demonstrate that a “sufficient
level of interaction” exists between the adjacent area
and the already-served area such that the proposed
service area “meets the requirements for being a local
community.” Id. at 88,440. The ABA’s challenge to
this aspect of the Rule fails.
Unlike the Rule’s provisions that automatically
qualify certain areas as belonging to a local community or rural district, the adjacent-area provision has
no definitional import. Instead it allows credit unions
to submit documentation in support of a proposed service area, and the NCUA then decides on a case-bycase basis whether the proposed area belongs to a single local community. It is only after the NCUA
evaluates an application that a definitional decision is
made. While these individual decisions can be challenged, the ABA’s current facial attack loses because
individual applications might propose service areas
well within a reasonable definition of local community. For example, a credit union serving Bethesda
might apply to add neighboring Chevy Chase, and the
NCUA’s approval of that application would be unlikely to contradict the Act. If a credit union serving a

81a
local community does not initially serve the entire
community, that is, the Act does not prohibit expansion into a greater portion of the community.
Neither is the adjacent-area provision arbitrary
and capricious. The NCUA considered the relevant
factors and articulated an adequate explanation for
its decision. See Fox, 684 F.3d at 75. The NCUA explained that “[t]here is no statutory requirement or
economic rationale that compels the Board to charter
only the smallest [local community service map] in a
particular area.” 81 Fed. Reg. at 88,412 (quotation
marks omitted).
The NCUA also chose reasonable factors for evaluating whether adjacent areas are part of the same
local community. The Rule establishes that when
evaluating a proposed adjacent area, the NCUA will
consider whether the quintessential characteristics of
a local community are present, including economic interdependence, related industries, intertwined traffic
flows, shared governmental or quasi-governmental
agencies, common educational institutions, and
shared public services such as common police or fire
protection. Id. at 88,415 & n.33; see also 80 Fed. Reg.
76,748, 76,772 (Dec. 10, 2015). This permits the
NCUA to bring its reason and experience to bear. The
NCUA’s ability to accept or reject credit-union proposals on a case-by-case basis allows it to make
reasonable decisions about whether a proposed area is
part of a single local community.

82a
B.

The NCUA’s Definition of Rural District

Finally, the Rule increases the population limit
for rural districts from 250,000 (or 3 percent of the relevant state) to one million. 81 Fed. Reg. at 88,440. The
Rule also maintains a rurality requirement that either (1) most of the area’s population resides in rural
areas (as defined by government agencies) or (2) the
area’s population density does not exceed 100 persons
per square mile. Id.
The original meaning of rural district dates to
1934. While the provision concerning community
credit unions has been amended elsewhere since then,
rural district—which has appeared unaltered in the
statute since its incipiency—maintains its 1934 meaning. The NCUA argues that the modern meaning of
rural district controls instead because in 1998 Congress gave the NCUA authority to define the term.
Hr’g Tr. at 28–29. But because the statute allows the
NCUA to define the term only within the bounds of
reason, the interpretive question still requires reference to the standard meaning of rural district as used
in the statute. 3 That meaning was not altered by the
grant of definitional authority.
3 This point is perhaps easiest illustrated with an example. The
Constitution requires the federal government to protect a state
from “domestic violence” upon the state’s request. U.S. Const.
art. IV, § 4. Scholars agree that this use of domestic violence refers to rioting or insurrection from within a state. Now, however,
the term is commonly used to refer to abuse inside the home, as
opposed to civil unrest. An inquiry into the reasonableness of a
definition for domestic violence as used in the Constitution would
require a comparison to the term’s original meaning, not its modern meaning.

83a
The parties do not dispute that in 1934 the word
rural meant what it means now—the pastoral countryside, as opposed to an urban area. See, e.g.,
Webster’s New International Dictionary (2d ed. 1934);
Concise Oxford Dictionary of Current English, New
Edition (1929). Their dispute is over how large a district can be when rural modifies it, and whether a
district can be considered rural if most of the district’s
residents live in urban areas.
Dictionaries from around 1934 indicate that some
areas described as districts were geographically expansive. They cite as examples the District of
Kentucky, District of Alaska, and District of Maine (as
those areas were known when not yet states). See
3 The Oxford English Dictionary (1933); 2 Dictionary
of American English (1940). One dictionary defines
district as a “region or territory whose limits and dimensions are approximately those of a state,” or
alternatively as an “extensive area, tract, or region
having limits only vaguely defined.” 2 Dictionary of
American English (1940). Another dictionary defines
district as “[a]ny portion of territory of undefined extent; region.” Webster’s Collegiate Dictionary (4th ed.
1931). Some definitions provide examples of much
smaller districts, but others are quite large. 4
4 For more examples of definitions suggesting a potentially expansive geographic scope, see Webster’s New International
Dictionary (2d ed. 1934) (defining district as “[a] division of territory; a defined portion of a state, county, country, town, or city,
etc., made for administrative, electoral, or other purposes . . . .”);
American College Dictionary (1949) (“[A] region or locality.”);
2 Dictionary of American English (1940) (“Any one of the various
areas, differing greatly in size, regarded as an election or administrative unit . . . .”); id. (citing Illinois and Ohio as examples of

84a
But geographically broad definitions of district do
not necessarily mean that a rural district could be
broad. It would be a mistake to conclude from these
broad definitions that a school district, for example,
could cover an entire state. And while few 1934-era
dictionaries define the rural district term, those that
do suggest that rural districts were smaller than a
county. Webster’s Second provides this definition of
rural district: “In England, Wales, and Northern Ireland, a subdivision of an administrative county
embracing usually several country parishes.” Webster’s New International Dictionary (2d ed. 1934); see
also Funk & Wagnell’s New Standard Dictionary of
the English Language (1913) (similar). This definition
has limited probative value because it reports nonAmerican usage, but its presence in American dictionaries suggests some degree of American familiarity.

the “extensive area[s]” regarded as districts for Methodist religious work).
For examples of definitions suggesting a narrower geographic
scope, see 3 The Oxford English Dictionary (1933) (“In U.S. used
in various specific and local senses . . . . In some States the chief
subdivision of a county (civil, magisterial, militia, justice’s district), called in other states townships or towns. Formerly, in
South Carolina = county; elsewhere, a division of a state containing several counties.”); 2 Dictionary of American English (1940)
(“A county or similar subdivision of a state.”); id. (“The neighborhood or community in which the one speaking resides.”); id. (“A
subdivision of a city serving as a unit for policing, fire prevention,
political representation, etc.”).
For (British) dictionaries that define district with reference to
rural areas, see 3 The Oxford English Dictionary (1933) (defining
district as “[o]ne of the urban or rural subdivisions of a county”);
Concise Oxford Dictionary of Current English, New Edition
(1929) (same).

85a
Relying on the fact that no dictionary definition
for American usage of rural district exists, the NCUA
argues that in America the phrase meant no more
than the sum of its component words. Hr’g Tr. at 30.
According to the NCUA, in other words, if an area was
both rural and a district, it could fairly be considered
a rural district. The Supreme Court has addressed
precisely this question—whether a multi-word phrase
carries distinct meaning—by “survey[ing] modern
press usage” with a search of “computerized newspaper databases—both the New York Times database in
Lexis/Nexis, and the US News database in Westlaw.”
Muscarello v. United States, 524 U.S. 125, 129 (1998).
Those databases contain virtually no record of 1934era language usage, but a more robust database indicates that the phrase rural district was used with
some frequency in the first half of the twentieth century before mostly falling out of usage in the second
half. 5 This suggests that even if rural district does not
carry meaning distinct from its individual words today, it did in 1934.
Usage of rural district in 1934-era judicial opinions also suggests that the term carried distinct
meaning—and that it referred to areas much smaller
than a state. A Westlaw search for rural district in
opinions published from 1920 through 1940 returns
293 cases. See ABA Suppl. Mem. App. 6, Dkt. 32-6. Of
The database, called the Corpus of Historical American English, is a giant repository of text that houses more than 400
million words collected from fiction, non-fiction, magazines, and
newspapers published from 1810 to 2017. A search at corpus.byu.edu/coha for “rural district*” shows a dramatic decline
in usage beginning around 1950.

5

86a
those, 144 provide clues to the term’s geographic
scope. 6 Many of those (68) use rural district to refer to
a rural school district. The others also plainly refer to
areas much smaller than a state. For example, one
opinion refers to a rural district “about five miles
square.” Robb v. Stone, 146 A. 91, 91 (Pa. 1929). Another mentions a utility company serving “a rural
district adjoining the village [of Tupper Lake].” Vill. of
Tupper Lake v. Maltbie, 15 N.Y.S.2d 491, 493 (N.Y.
App. Div. 1939). A third opinion reports that a newspaper salesman sought to distribute papers “in a
certain designated territory consisting of small villages and rural districts.” Brechbiel v. Hentgen, 8
N.E.2d 1007, 1007 (Ind. Ct. App. 1937). Many opinions (23) refer to rural districts within a named city or
county. See, e.g., Blake v. Bd. of Educ. of City of Parsons, 210 P. 351, 351 (Kan. 1922) (referring to a “rural
district of Labette county”). Against the dozens of similar examples, not one opinion appears to envision a
rural district approaching the size of a state.
Finally, the noscitur canon also indicates that rural districts were geographically small. As noted, the
term neighborhood referred to an area smaller than a
city. See supra Section III.A.1. And the term community referred to areas under “the same local laws” and
not to “large geographical areas” with “widely diverse
interests.” Id.; Lukens Steel, 107 F.2d at 631; 2 The
Century Dictionary and Cyclopedia (1911).
6 The phrase the rural districts was often used simply to distinguish from urban areas. See, e.g., Widmer v. State, 142 N.E. 145,
145 (Ohio Ct. App. 1924) (“[T]he people from the rural districts,
joining with the people of the towns and villages, would gather .
. . and have their contests.”). Opinions like Widmer, however, do
not shed light on the size of any individual rural district.

87a
Yet the Rule defines certain areas significantly
larger than most states as belonging to a single rural
district. Here are three examples, shaded in red, blue,
and yellow, of areas that qualify under the Rule:

See State Associations Amicus Br. at 22–24, 34–41,
Dkt. 18. The red area includes most of Nevada along
with portions of four adjoining states; the blue area
includes Wyoming and portions of six adjoining states;
and the yellow area includes portions of Texas, Oklahoma, Kansas, Colorado, and New Mexico. Each area
has a population density well under 100 persons per
square mile. Id.
Not only are these areas geographically expansive, they also capture numerous urban centers. The
yellow area, for example, includes the Amarillo, Texas
Metropolitan Statistical Area, which has a population
of more than 250,000 people. The Rule’s rurality requirement originated in a previous iteration of the
regulation and is not challenged here, but its low
threshold exacerbates the deficiencies of the Rule’s
population-limit increase. It is the combination of the

88a
rurality requirement and the population-limit increase that qualifies Amarillo as part of a rural
district. Similarly, because of the population-limit increase, the state of Wyoming now qualifies as
belonging to a rural district even though 57 percent of
the state’s residents live in urban areas. See ABA Br.
at 39.
As with other challenged provisions of the Rule,
the NCUA left itself no escape hatch for fielding rural
district applications. As long as a credit union’s proposed service area meets the Rule’s population and
rurality requirements, the Rule automatically characterizes the area as a rural district—no matter its
geographic size or the number or size of metropolitan
areas falling within its proposed boundaries. And a
definition of rural district that includes the expansive
areas illustrated above is not even in the ballpark of
the term’s standard meaning. Because the Rule automatically qualifies areas larger than states as rural
districts even though the term commonly referred to
areas smaller than a county, the NCUA’s definitional
decision is unreasonable and manifestly contrary to
the statute.

89a
CONCLUSION
For the foregoing reasons, the Court grants in
part and denies in part the ABA’s motion for summary
judgment, Dkt. 14, and the Court grants in part and
denies in part the NCUA’s cross-motion for summary
judgment, Dkt. 19. A separate order consistent with
this decision accompanies this memorandum opinion.
/s/ Dabney L. Friedrich
.
DABNEY L. FRIEDRICH
United States District Judge
Date: March 29, 2018

90a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_____________
No. 18-5154
September Term, 2019
1:16-cv-02394-DLF
Filed On: December 12, 2019
AMERICAN BANKERS ASSOCIATION,
Appellee,
v.
NATIONAL CREDIT UNION ADMINISTRATION,
Appellant.
_____________
Consolidated with 18-5181
BEFORE: Garland, Chief Judge, and Henderson,
Rogers, Tatel, Griffith, Srinivasan, Millett, Pillard,
Wilkins, Katsas, and Rao, Circuit Judges
ORDER
Upon consideration of appellee/cross-appellant’s petition for rehearing en banc, the response thereto, and
the absence of a request by any member of the court for
a vote, it is

91a
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer,
Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

92a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
12 U.S.C. § 1751 note
The Congress finds the following:
(1) The American credit union movement began as
a cooperative effort to serve the productive and
provident credit needs of individuals of modest
means.
(2) Credit unions continue to fulfill this public
purpose, and current members and membership
groups should not face divestiture from the
financial services institution of their choice as a
result of recent court action.
(3) To promote thrift and credit extension, a
meaningful affinity and bond among members,
manifested by a commonality of routine
interaction, shared and related work experiences,
interests, or activities, or the maintenance of an
otherwise well-understood sense of cohesion or
identity is essential to the fulfillment of the public
mission of credit unions.
(4) Credit unions, unlike many other participants
in the financial services market, are exempt from
Federal and most State taxes because they are
member-owned, democratically operated, not-forprofit organizations generally managed by
volunteer boards of directors and because they
have the specified mission of meeting the credit

93a
and savings needs of consumers, especially
persons of modest means.
(5) Improved credit union safety and soundness
provisions will enhance the public benefit that
citizens receive from these cooperative financial
services institutions.
12 U.S.C. § 1759(b)
(b) Membership field
Subject to the other provisions of this section, the
membership of any Federal credit union shall be
limited to the membership described in one of the
following categories:
(1) Single common-bond credit union
One group that has a common bond of occupation
or association.
(2) Multiple common-bond credit union
More than one group—
(A) each of which has (within the group) a
common bond of occupation or association; and
(B) the number of members, each of which (at
the time the group is first included within the
field of membership of a credit union described
in this paragraph) does not exceed any
numerical
limitation
applicable
under
subsection (d).

94a
(3) Community credit union
Persons or organizations within a well-defined
local community, neighborhood, or rural district.
12 U.S.C. § 1759(g)(1)
(g) Regulations required for community credit unions
(1) Definition of well-defined local community,
neighborhood, or rural district
The Board shall prescribe, by regulation, a
definition for the term “well-defined local
community, neighborhood, or rural district” for
purposes of—
(A) making any determination with regard to
the field of membership of a credit union
described in subsection (b)(3); and
(B) establishing the criteria applicable with
respect to any such determination.

